<html>
<title> - INVESTING IN OUR NATION'S FUTURE THROUGH AGRICULTURAL RESEARCH</title>
<body><pre>[Senate Hearing 110-42]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-42
 
                    INVESTING IN OUR NATION'S FUTURE
                     THROUGH AGRICULTURAL RESEARCH

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 7, 2007

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-042                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
KEN SALAZAR, Colorado                NORM COLEMAN, Minnesota
SHERROD BROWN, Ohio                  MICHEAL D. CRAPO, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa

                Mark Halverson, Majority Staff Director

                      Robert E. Sturm, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Vernie Hubert, Minority General Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Investing in our Nation's Future Through Agricultural Research...     1

                              ----------                              

                        Wednesday, March 7, 2007
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................     1
Bond, Hon. Christopher S., a U.S. Senator from Missouri..........     3
Chambliss, Hon. Saxby, a U.S. Senator from Georgia...............     2
Salazar, Hon. Ken, a U.S. Senator from Colorado..................     5

                                Panel I

Buchanan, Gale, Under Secretary, Research, Education, and 
  Economics, U.S. Department of Agriculture, Washington, DC......     6

                                Panel II

Armstrong, Jeff, Dean, College of Agriculture and Natural 
  Resources, Michigan State University, East Lansing, Michigan...    21
Danforth, William, Chancellor Emeritus, Vice Chairman of the 
  Board of Trustees, Washington University, St. Louis, Missouri..    23
Leshner, Alan, Chief Executive Officer, American Association for 
  the Advancement of Science, Washington, DC.....................    19
Thicke, Francis, Radiance Dairy Farm, Fairfield, Iowa............    25
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    40
    Crapo, Hon. Mike.............................................    42
    Grassley, Hon. Charles E.....................................    43
    Salazar, Hon. Ken............................................    47
    Armstrong, Jeff..............................................    48
    Buchanan, Gale...............................................    58
    Danforth, William............................................    64
    Leshner, Alan................................................    69
    Thicke, Francis..............................................    80
Document(s) Submitted for the Record:
Harkin, Hon. Tom:
    Written questions for Gale Buchanan..........................    90
Cochran, Hon. Thad:
    Written questions for all panelists..........................    93
Crapo, Hon. Mike:
    Written questions for Gale Buchanan..........................    94
Lincoln, Hon. Blanche L.:
    Written questions for Jeff Armstrong.........................    95
    Written questions for Gale Buchanan..........................    95
Buchanan, Gale:
    ``National Institute for Food and Agriculture, a Proposal''..    96
American Society for Nutrition, prepared statement...............   163
American Society of Plant Biologists, prepared statement.........   168
American Society for Horticultural Science, prepared statement...   174
Council of Scientific Society Presidents, prepared statement.....   175
National Coalition for Food and Agricultural Research, prepared 
  statement......................................................   182
National Corn Growers Association, prepared statement............   188
National Wheat Improvement Committee, National Association of 
  Wheat Growers and North American Millers' Association, prepared 
  statement......................................................   189



                    INVESTING IN OUR NATION'S FUTURE
                     THROUGH AGRICULTURAL RESEARCH

                              ----------                              


                        Wednesday, March 7, 2007

                                       U.S. Senate,
                                  Committee on Agriculture,
                                    Nutrition, and Forestry
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Tom Harkin, 
Chairman of the Committee, presiding.
    Present: Senators Harkin, Stabenow, Salazar, Casey, 
Chambliss, and Thune.
    Also present: Senator Bond.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    By the way, I was just notified that the votes we were 
supposed to have were moved to this afternoon, so it looks like 
we will be OK for our hearing this morning. We had three votes 
scheduled at 10 o'clock, and I think they have been moved.
    Today's hearing will examine an often overlooked yet vital 
portion of the farm bill, and that is the research title. This 
provides a wide range of benefits to our society, from 
agricultural producers to consumers. Every kind of research 
related to food and agriculture is supported by the farm bill, 
from nutrition to food safety to energy, plant and animal 
diseases. So much of what we seek in our Nation's future 
depends on the quality and quantity of our ag research, 
extension, and education programs.
    I believe we take agricultural research for granted because 
many of us here in the United States take our food supply kind 
of for granted. Every fruit, vegetable, and cut of meat the 
public eats has a research story behind it, whether it is a 
story about improving its nutrition, safety, flavor, or 
production. The products of agricultural research are literally 
consumed by Americans every day of their lives, and I hope to 
ensure with this year's farm bill that every ounce of renewable 
energy that someday every American will use will have a 
research story behind it, too. And I will be asking a lot of 
questions about research and energy in our hearing this 
morning.
    Ag research has already produced countless success stories. 
We continue looking to it to guide our food production, our 
eating habits, and now, again, our energy production. Because 
of agricultural research, we know that particular foods contain 
anti-cancer compounds. We have developed crop varieties that 
are resistant to particular diseases. And we know that 
conservation is important to keeping farmland productive.
    The list could go on and on. The successes are many. But I 
think it is safe to say the fact that we have the most abundant 
supply of food, the biggest variety of food, and the cheapest 
food available to our consumers of anywhere in the world really 
tells the story of agricultural research.
    But America's investment in ag research, extension, and 
education has fallen behind. That fact is clear when we compare 
agricultural research funding with other non-defense research 
and development funding.
    For example, I sit on another Committee that has 
authorization over the NIH, and the National Institutes of 
Health experienced a doubling of their funding in a 5-year 
period, from 1998 to 2002, a very strong bipartisan effort with 
the White House to get that done, encompassing two 
administrations.
    In comparison, funding for the U.S. Department of 
Agriculture's research, education, and extension programs has 
remained almost flat in inflation-adjusted dollars over the 
past two decades.
    Now, biomedical research, of course, is important and saves 
lives every day. No doubt about it. But agricultural research 
does the same, and when its vast potential is unleashed, the 
effects are profound. Again, we only need to look at the work 
of Dr. Norman Borlaug to see the millions of lives saved by 
agricultural research.
    So I look forward to our witnesses today in the hearing and 
the questions and answers that we will have, and now I will 
turn to our distinguished Ranking Member, Senator Chambliss.

 STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Well, thank you very much, Chairman 
Harkin, and as always, I appreciate your holding a hearing on 
such a critically important matter to agriculture and the 
various proposals being presented today and look forward to our 
discussion on them.
    The U.S. investment in agricultural research, extension, 
and education programs has been one of the primary reasons for 
the great productivity of our farmers and ranchers over the 
past century. This investment also has helped farmers protect 
and enhance the natural resource base of this country. It is 
hard to imagine how we would have survived and reversed the 
damage caused by the Dust Bowl years without research, 
extension, and conservation programs. We need to continue to 
invest in our research institutions and programs to ensure U.S. 
farmers and ranchers can meet the growing demand for food, 
fuel, and fiber, while also protecting the environment.
    Some believe we are at a crossroads for U.S. agricultural 
research systems. Stakeholders are asking if the current 
structure and funding mechanisms will work as well for us in 
the future as they have in the past. I thank the individuals 
and organizations that have made recommendations. Their 
proposals cover a wide range of policy options. I understand 
the time and effort it takes to develop a serious proposal and 
realize that by suggesting something new, criticism can follow. 
I appreciate that this discussion is taking place and encourage 
all stakeholders to engage in this issue and work with this 
Committee to ensure our agricultural research system can meet 
the challenges of the 21st century.
    And let me say, Mr. Chairman, our first witness today is a 
long-time dear personal friend of mine, a guy who spent part of 
his academic career in Iowa, and he wandered out there but 
found his way back to Georgia.
    Dr. Gale Buchanan was Dean of the College of Agricultural 
Sciences and Environmental Works at the University of Georgia 
for many years, and in that capacity, boy, what a fan of 
research he has been and a guy who just devoted a lot of time 
and effort to ensuring that funds flowed not just to the 
University of Georgia, where we have an outstanding Department 
of Research, but that the funding our land grant colleges 
around the country was made available at least at the level 
that we are seeing it. So I am very pleased that he is here 
this morning to share some thoughts with us. In his new 
position now, he is officially the Under Secretary for 
Research, Education, and Economics, but he is a great American 
and a great friend. He actually lives down in my part of the 
world. He has a farm over in Cook County, Georgia, which 
adjoins my home county.
    So I am very pleased that Gale is here to share some 
thoughts and ideas with us this morning.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    Now, for the purpose of a statement but also I know Senator 
Bond has a schedule he has to make this morning, and also for 
the purposes of an introduction of someone who is going to be 
on the second panel, Senator Bond.

  STATEMENT OF HON. CHRISTOPHER S. BOND, A U.S. SENATOR FROM 
                            MISSOURI

    Senator Bond. Well, thank you very much, Chairman Harkin 
and Senator Chambliss. Thank you for holding this critically 
important hearing on agricultural research and for giving me 
this opportunity to introduce a dear friend, a distinguished 
scientist, Dr. William Danforth. I will submit his very lengthy 
and distinguished resume for the record, but I think all of the 
people from the academic and science communities who are here 
with us and, I trust, members of this Committee and staff know 
about his great record.
    I apologize because if I were controlling my schedule, I 
would be here for the entire hearing because it is that 
important. Unfortunately, my very attentive staff has scheduled 
me back to back for the rest of the morning, and I will not be 
able to do it. I will submit Dr. Danforth's resume, but one of 
his most recent contributions to the science community was his 
service as Chairman of the Research, Education, and Economics 
Task Force, which was authorized in the 2002 farm bill. And I 
might say, Mr. Chairman, on all these things we worked over the 
years in this Committee and in the Appropriations Committee to 
push this vital subject of ag research, which you so eloquently 
described.
    The Secretary of Agriculture appointed five other members 
from different land grant institutions, the President of the 
BBI and a representative from Watershed Agricultural Council, 
to review and evaluate the merits of establishing one or more 
national institutes focused on disciplines important to food 
and agricultural sciences and then report the findings to 
Congress and the USDA.
    The task force report to Congress entitled ``The National 
Institute for Food and Agriculture,'' or NIFA, as I understand 
it is appropriately pronounced, highlights the challenges, 
opportunities, models, recommendations, and the need for 
action. The challenges, quite simply, are that American 
agriculture faces serious challenges, including increasing 
foreign competition, diseases of plants and animals, calls for 
greater food safety, demands for better diets that promote 
health and avoid obesity, the need to protect and enhance the 
environment, demands for renewable sources of energy and new 
sources of domestic energy and biodegradable products, and not 
the least, world hunger. This provides tremendous opportunities 
for America's agricultural community. Advances in the life 
sciences and genetics, proteomics, cell and molecular biology 
provide the base for new and continuing agricultural 
innovations.
    Fortunately, the National Institutes of Health and the 
National Science Foundation have long and successful experience 
in fostering that research, which has led to spectacular 
innovations in health and other fields. Especially effective 
have been programs that allow scientists to compete for grants 
and fund proposals on the basis of scientific merit and 
national need. These lessons have not been applied to the field 
of agriculture.
    On a personal note, I worked with you when I had the 
privilege of chairing the subcommittee that funds the National 
Science Foundation, and while you and Senator Specter were able 
to double the funding for NIH, we have not been able to get NSF 
funding any substantial increase. I have been blasted by the 
President's Science Adviser, and I pointed out to him that OMB 
has not put any money in, and we did not have the money to 
increase the NSF budget. But about 10 years ago, I did a wild 
and foolish thing, which gained me a lot of scorn and obloquy 
from the scientific community by directing that the NSF expand 
its genetic engineering research and begin mapping the plant 
genome of commercial commodities, beginning with maize. 
Fortunately, Dr. Mary Clutter, a cell biologist, took that 
program and made it into a major program in NSF. So we sneaked 
one into the NSF budget, and the results have been spectacular 
and I think show what can be done for agriculture if we can 
adopt the kind of program that is laid out in NIFA.
    The task force that was chaired by Dr. Danforth recommended 
a National Institute for Food and Agriculture. To be successful 
in promoting modern life sciences research, NIFA will have to 
develop its own culture and its own relations with Congress 
that are similar to those of NIH and NSF. NIFA should not 
replace the traditional research programs of the USDA that 
remain valuable for many reasons, including the practical 
challenges of making sure that advances from fundamental 
research are adapted to local and regional needs and that we 
can have applied research and development. And I say that to 
keep my friends from land grant colleges and agricultural 
institutions off my back. It is not to replace--you gentlemen 
have heard me all right. The proposed program would grow in 
cost hopefully over a 5-year period, eventually reaching an 
annual expenditure of $1 billion, which, frankly, is not much 
given the potential in this field.
    The National Academy of Science and others have somewhat 
similar recommendations. For over three decades, the interim 
challenges to American agriculture have become more acute and 
the scientific opportunities have grown. The task force 
concluded that funding for fundamental research is woefully 
inadequate. Other nations are making investments in 
agricultural science with a goal of competing more effectively 
in the world markets. The time for complacency is over. The 
task force members have faith that America's response will be 
appropriate, and I hope that with your leadership, Mr. Chairman 
and Senator Chambliss, we can make Congress take the necessary 
steps.
    Personally, I think Dr. Danforth and the members of the 
task force for their commitment to science, and particularly to 
the future of agricultural research. And I look forward to 
working very closely with you, Mr. Chairman and Ranking Member, 
to introduce the NIFA bill in the 110th Congress.
    Chairman Harkin. Thank you very much, Senator Bond, and I 
understand that you have other things you have to do.
    Senator Bond. Unfortunately, I do.
    Chairman Harkin. Senator Salazar, did you have a brief 
opening statement that you would like to make?

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. I have a statement that I will submit for 
the record, Mr. Chairman, and let me also just say to you, Mr. 
Chairman, that I very much appreciate your willingness to come 
out to Colorado and to hold a hearing on the farm bill. The 
people are Colorado are excited to have you there. We will be 
doing beyond just a farm hearing, also looking at the National 
Renewable Energy Lab for about 3 hours, and I know that is such 
an important part of the bipartisan effort here that we will 
see on biofuels in Title IX in the farm bill.
    So we are excited to have you there, and we look forward to 
working with you on all the issues of the farm bill, including 
the issue of research, which is so much at the foundation of 
the future of Colorado.
    Thank you very much.
    Chairman Harkin. How much snow will we have before we get 
there?
    [Laughter.]
    Chairman Harkin. It seems like every time I look at the 
weather map, you are getting more snow in Colorado. Of course, 
the ski country has been great, I guess, right?
    Senator Salazar. Well, we have had up to 4 feet, but most 
of it is gone. So I think the skies will be blue, and it will 
be a welcoming time for you there.
    Chairman Harkin. Very good.
    Well, we welcome Dr. Gale Buchanan, Under Secretary for 
Research, Education, and Economics at USDA. Again, as my good 
friend Saxby Chambliss said, Dr. Buchanan earned most of his 
degrees in Florida, and then came to Iowa State, and got his 
Ph.D. at Iowa State. We are very proud of you, proud of your 
involvement with Iowa and just proud of your whole career, Dr. 
Buchanan.
    Your statement will be made a part of the record in its 
entirety, and if I could ask you to sum it up, I think we would 
much rather get into kind of a colloquy with you on some of 
these issues. But, welcome, Dr. Buchanan, and please proceed. 
If you can sum it up in 5 minutes or so, I would sure 
appreciate it. Then we will just have--like I say, we will just 
talk to each other.

    STATEMENT OF GALE BUCHANAN, UNDER SECRETARY, RESEARCH, 
   EDUCATION, AND ECONOMICS, U.S. DEPARTMENT OF AGRICULTURE, 
                         WASHINGTON, DC

    Mr. Buchanan. Thank you very much. Chairman Harkin and 
Ranking Member Chambliss and other distinguished members of the 
Committee, this is the first time I have been back before the 
Committee since my confirmation this past May, and it is a real 
pleasure to be here this morning to talk about the Department 
of Agriculture's research, education, and economics area, and 
particularly about Title VII of the 2007 farm bill proposals 
that were recently released.
    In my 40-plus years in agricultural research and 
administration, I have never seen such exciting times in 
agriculture, and that is a very important statement. We are in 
the early stages of a major change in agriculture. I do not 
think it is anything like we have seen in 150 years. We have 
gone from the mission of producing food, feed, and fiber to a 
responsibility and a mission for producing food, feed, fiber, 
and fuel, or energy, and that is a major undertaking.
    Along with this great challenge and exceedingly high 
expectations are unparalleled needs for research, education, 
and extension programs to support this effort. Science has 
served us as a vitally important foundation for our Nation's 
agricultural system. This systems provides this Nation and much 
of the world with the need for the necessities of life.
    While there has been excellent success in the past, I think 
we must build an even stronger foundation to maintain our 
leadership in agriculture for the future. This is imperative if 
this Nation's agricultural system is to continue to be a world 
leader and not be severely crippled by the ever increasing 
problems that we have in agriculture, from pest threats, 
changing world markets, droughts, and other natural impacts 
that always seem to affect agriculture.
    The administration's Title VII of the 2007 farm bill 
proposals provide the organizational structure and specific 
funding of particular high-priority initiatives for meeting the 
immediate and long-term scientific needs of agriculture.
    While the organizational structure of our programs has 
served us well in the past, we have a responsibility to strive 
continuously to improve their efficiency and effectiveness. 
However, I think we must make some changes to ensure our 
success in the future.
    Looking to the future, the administration proposes the 
creation of the Research, Education, and Extension Service, 
REES. This would be through the merger of the Agricultural 
Research Service, ARS, and the Cooperative State Research, 
Education, and Extension Service. This new agency would be 
under the leadership of a chief scientist who would have 
overall responsibility for both intramural and extramural 
research efforts within the Department. All current formula 
funding authorities, including those for Hatch, Smith-Lever, 
McIntire-Stennis, 1890, 1994, Hispanic Serving Institutions 
would remain in effect. Duplication of effort between 
intramural and extramural programs would be minimized while 
better identifying and utilizing comparative strengths of 
USDA's in-house capacity as well as USDA's university partners 
and other cooperators in this great effort. Having a single 
national program staff would greatly facilitate stakeholder 
interaction.
    Another part of the 2007 farm bill proposals is the call 
for $50 million in annual mandatory spending for the creation 
of the Agricultural Bioenergy and Bio-based Products Research 
Initiative to enhance the production and conversion of biomass 
to renewable fuels and bio-products. This new addition would 
focus research and development efforts on two primary 
objectives: the first is producing biomass in a sustainable 
way; and, second, to convert that into biofuels or other useful 
bio-products.
    Since the sun is our most reliable source of energy, and 
agriculture is in the business of converting the sun's energy 
into things useful to man, it is absolutely clear to me that 
agriculture will play a vital role in this Nation achieving a 
greater degree of energy independence for the future.
    Another part of the administration's proposal is a 
recommendation for the establishment of a Specialty Crops 
Research Initiative supported by $100 million of annual 
mandatory funding. During the farm bill listening sessions, we 
repeatedly heard the call for an increased investment in 
research for specialty crops. Specialty crops comprise a 
substantial part of the total crop portfolio of American 
agriculture, and they also play a critical role in providing a 
balanced nutritional diet for all Americans. Some of the 
specific issues to be addressed would include but not be 
limited to genetics, genomics, bringing new varieties, food 
safety, quality, production, efficiency, mechanization, et 
cetera.
    Mr. Chairman, again, thank you for the opportunity to 
testify before the Committee regarding USDA's farm bill 
proposals to strengthen the Nation's agricultural research, 
extension, and education programs. I look forward to hearing 
your comments and responding to your questions. Thank you very 
much.
    [The prepared statement of Mr. Buchanan can be found on 
page 58 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Buchanan, and I 
will just start off here and take 5 or 6 minutes, and then we 
will go around. I think we will probably have a couple of 
rounds.
    First of all, Dr. Buchanan, one of the things about having 
been here as long as some of us have been, we remember things. 
In 1977, I was on the House Ag Committee. In fact, I was on the 
subcommittee that dealt with research on the House side. And 
the then-Secretary of Agriculture, Bob Bergland, from 
Minnesota, Secretary Bergland, in response to, I think, some 
congressional input, did a similar thing. They created the 
Science and Education Administration in 1977. It consolidated 
ARS, the Cooperative State Research, Education, and Extension 
Service. About 4 years later, the Science and Education 
Administration was dissolved because it created another level 
of bureaucracy for stakeholders, and that is what we heard. 
Again, I was still in the House at the time. We heard from our 
land grant colleges, we heard from others, who said the Science 
and Education Administration was just another layer of 
bureaucracy, and that they were not getting through like they 
had in the past. And so, the whole thing was dissolved.
    Well, it sounds like what you are creating here is just 
like what was created in 1977. So how is USDA's current 
proposal to combine the same elements again, how is that 
different than what occurred in the Science and Education 
Administration in 1977?
    Mr. Buchanan. Well, Senator, I think that what we are 
proposing is the merger of just ARS and CSREES. This would be 
accomplished by having only a single agency that would have 
responsibility for the research programs in the Department. 
Another very key part of that effort would be to have a single 
national program staff. At the present time, we basically have 
two research organizations within the Department--one in-house, 
our intramural programs; one extramural, or programs that 
support the land grant universities and other universities that 
have agricultural programs.
    So I would see this as certainly quite a bit different from 
what you have mentioned that occurred in 1977. I am aware that 
there were changes made later that combined the Extension 
Service and the Cooperative State Research Service at the time 
which brought all of the programs that support the land grant 
universities together. But basically I think that what we are 
proposing would be a more simplified effort. It certainly would 
facilitate stakeholders from making contact for research. 
Rather than going to two separate agencies, they would go to 
one national program staff. And I think it would be beneficial 
from that perspective .
    Chairman Harkin. Well, I would like to take a look at it. I 
would like to just see what the differences are and why this 
proposal will be better than what we did back in the seventies. 
I don't know the details of your proposal from what you've 
said, but perhaps it will become more clear when my staff and I 
review the proposal on paper. I'm sure your proposal has its 
merits, but I do remember when we consolidated programs in the 
past and it did not work out so well.
    Can I just ask you a couple questions about formula funds, 
Dr. Buchanan? We have several formulas under which USDA 
distributes research, education, and extension funding, and 
maybe the question I am going to ask, you cannot answer now, 
but I would appreciate it if you would answer it for the 
record, at least, anyway.
    What are all the specific factors in each of these 
formulas? In other words, what data is plugged into each of the 
formulas? And, again, let me just tell you what I am getting at 
here. I understand the value of formula funds for what is 
commonly called ``capacity building.'' I have been generally 
supportive of that over the years. But the formulas that we 
rely on go back a century or more, and I am just wondering if 
maybe we ought to look at the formulas we use.
    How long have these formulas been in place?
    Mr. Buchanan. Sir, I honestly do not know how long they 
have been in place, but I do know that they go back a long way.
    Chairman Harkin. Some to the 1800's.
    Mr. Buchanan. Well, the Hatch Act of 1887 is what created 
the experiment station system, and I would assume that that 
is--some of them go back that far. But I think the thing 
regarding funding mechanisms, obviously we employ a number of 
different mechanisms for extramural programs through CSREES, 
and obviously it is common knowledge that the most popular way 
of funding in the future is probably going to be through the 
competitive process. This has certainly been the story that you 
are hearing more and more every day. But, clearly, there are 
roles for the formulas to play. In fact, the administration 
supports a balanced portfolio.
    Originally, when the Hatch Act was passed in 1887, the 
formula money was supposed to be for experiment station 
directors in every State to address specific locals needs in 
that State. But over the years, things have changed a good bit, 
so that we are a much more integrated society now, and on 
problems we coordinate more. But there is still a role to play.
    So I think the approach of the administration in taking a 
balanced portfolio of looking at different ways of funding 
research, certainly the NRI is a wonderful competitive program 
that has standards equal to any other agency here in town. My 
point, I guess, is that it takes different ways of funding 
research.
    Chairman Harkin. Well, again, would you supply for us--and 
maybe my staff can get this information from your office--just 
the names and purposes of the several formulas under which USDA 
distributes research, education, and extension funding; what 
are the specific factors in each of these formulas; in other 
words, what is the data that is plugged into the formulas.
    Now, again, as you know, when the land grant schools were 
set up, the formulas were based upon the rural population in 
each State. But as you well know, our land grant colleges reach 
out way beyond State borders. You yourself came from Florida to 
go to Iowa State and then went back to Georgia. I mean, they 
blend all over the place. Stuff that is done in Georgia I am 
sure affects us up our way, and what is done at Iowa State 
affects ag research in Georgia.
    So this old idea that is somehow bounded by rural 
population in States seems to me to be an old system that 
demands further examination. I must ask, is it time to re-
examine how the formulas, right now as they stand, to meet the 
challenges of the day? You mentioned that the administration 
proposed a balanced program. I understand that. But just 
creating a balanced program does not, examine the underlying 
assumptions made in the formulas, and I am wondering if it is 
not time to take a look at just that. Any response on this 
issue?
    Mr. Buchanan. Yes. One of the things that I would say is I 
certainly agree that different approaches to funding research 
is important. One of the things that we are doing is the 
development of the multistate competitive program using formula 
funds to encourage States to work together, because you are 
absolutely right, one of the great strengths of our system is 
the cooperative nature that we have by working across State 
lines. Many of the problems clearly are approachable more 
effectively by working together with different States, and so 
the multistate competitive program, by using some of the 
formula funds in that light, is certainly a step in the right 
direction.
    Chairman Harkin. I appreciate that, Dr. Buchanan.
    I yield now to Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Dr. Buchanan, going back to this issue of consolidation of 
ARS and CSREES, I understand the idea would be to make it more 
efficient, consolidate requests for research and whatnot. What 
are you asking for now in this new proposal that you do not 
already possess from the standpoint of being able to make these 
agencies more efficient and operate in a coordinated way?
    Mr. Buchanan. Well, Senator, what we really are asking for 
in the farm bill proposal is simply a framework. It is going to 
take a lot of implementation planning to really put the meat on 
the bones, so to speak, because all we have is a framework. And 
what we plan to do is in time develop implementation plans that 
includes representatives of both of the agencies to help us put 
the ideas together that will make it work.
    The last thing I want to do is simply have a plan that then 
we try to force on people. I want this to be something that we 
all put together that would make our system stronger.
    One of the questions that, in fact, you asked me during my 
confirmation as what did I want to do while I was here in my 
short term, and clearly I want to leave the research and 
education programs in the Department stronger than when I came. 
And I think this would be one of the ways that I could do that, 
by putting together a unified effort, and by merging areas in 
CSREES with a single national program staff, I think we would 
have a much stronger system in the future. And that is what I 
want to do, Senator.
    Senator Chambliss. Would you anticipate closing any 
existing offices, eliminating any personnel in that process?
    Mr. Buchanan. That is a very important point, and I have 
tried to make it very clear that the proposal that I have on 
the table does not have any closures of facilities, that we are 
not looking at reducing personnel. I am simply looking at a new 
structure that would let us do a more effective job with the 
people we have got and the locations we have got.
    So I do not anticipate this being the cause of any closure 
of facilities or any loss of personnel.
    Senator Chambliss. How do you respond to the criticism that 
if we consolidate these agencies into one agency instead of 
actually four agencies requesting research funds, we are now 
going to have one agency that is going to make the decision on 
where the money goes, and if it dominated by any one segment of 
the agriculture community, that one segment may get more 
funding and more projects devoted to them than other segments 
of the research community?
    Mr. Buchanan. Senator, that is a question that a lot of our 
own people have asked, and I have tried to assure that I do not 
anticipate the reorganization as changing the balance between 
intramural and extramural because that is a very critical 
issue. But it is also important to recognize that I think that 
the importance of having the idea that everyone can work 
together, you will still have the structure within the 
Department, and I make this point very forcefully, that we will 
maintain the administrator, the chief science administrator of 
the new agency. And, of course, that person will answer to an 
Under Secretary who answers to a Secretary. So we have checks 
and balances to ensure that we do not go off in left in any 
direction, just as we have now.
    So while I tried to assure folks that this is not what I 
anticipate, and I think that what we are proposing would ensure 
that that does not happen.
    Senator Chambliss. OK. Let me ask you a sort of somewhat 
related question here. One of the critical aspects of 
agriculture that nature takes care of is the issue of 
pollination by honeybees. And I read some stories in the press 
in the last several days about honeybees across the Nation 
dying.
    I have been a supporter of the North American Pollinator 
Protection Campaign in its efforts to highlight the importance 
and potential problems facing pollinators, including honeybees. 
Can you give us any idea about what is happening to the 
honeybees? And what is USDA doing about that right now to try 
to get some answers for our farmers across the country on this 
issue?
    Mr. Buchanan. Well, I would like to respond in two or three 
ways.
    First, I am very much aware of the problem with the 
honeybees and the die-offs, and it is caused by a problem, and 
there is a lot of research going on trying to address that 
problem at the present time. I would point out that the 
recipient of the outstanding research paper aware for the 
CSREES National Research Initiative effort was won by a 
scientist at Texas A&M University, and her research was 
involving honeybees.
    We also have a major effort within ARS. Certainly when I 
was dean at the University of Georgia, the honeybee program was 
a major program, and we had a strong industry support in that 
State, as we do in many States.
    Also, it is important in this Specialty Crops Initiative 
that so many of our specialty crops, and particularly some of 
our vegetables, depend upon pollination by honeybees. So I can 
see where this whole issue is going to continue to be a major 
challenge and one that I would hope that in the Specialty Crops 
Initiative we can probably carve out some money to help 
continue this effort.
    Senator Chambliss. I realize I may have caught you off 
guard with asking about this particular issue, but it is a 
critical part of agriculture. Would you mind just checking on 
that and giving us for the record what the position of the USDA 
is on this right now, what we know about it, and what we are 
doing about it?
    Mr. Buchanan. We will get you some of the specific research 
that is underway and where we are and so forth. We would be 
glad to, Senator.
    Senator Chambliss. Good. Thank you.
    Thanks, The Chairman.
    Chairman Harkin. Thank you, Senator Chambliss.
    Senator Salazar?
    Senator Salazar. Thank you very much, Mr. Chairman.
    Let me say, Dr. Buchanan, I am excited and share your 
enthusiasm about the vision for renewable energy in agriculture 
and moving from food, fiber, and feed, to also add fuel to that 
equation.
    My question to you has to do with the Agricultural 
Bioenergy and Bio-based Products Research Initiative. You have 
added $50 million annually, $500 million over 10 years. How did 
you come up with that amount of money as necessary to move 
forward with this Bio Research Initiative? And what are the 
components of what would be included in that $50 million annual 
outlay?
    Mr. Buchanan. Well, certainly we identified this as one of 
the real challenges, and, of course, there are many, many 
others, but this was something that during my interim between 
retiring as dean and before I came here, I got interested in 
the energy picture. In fact, I took a group of farmers and 
county and State officials out to your State, visited NREL at 
Golden, Colorado. Then we went on to Nebraska and to Iowa and 
to Minnesota, looking at windmill farms, ethanol plants, and so 
forth.
    So this was an issue that was cooking in my mind even 
before I became Under Secretary. And as we started thinking 
about for the farm bill this was certainly a topic that I 
wanted to see included, and it was accepted. And so this is a 
major infusion of resources that will help us be a player 
within the other parts of the Federal Government, certainly DOE 
and other agencies that are involved. And we want to be--I just 
think agriculture needs to be at the table and involved in 
developing how our Nation becomes energy independent or greater 
independence.
    Senator Salazar. And I appreciate that, and I think you are 
going to find a great bipartisan support for moving in that 
direction here in the U.S. Senate, and I think in this 
Committee. My question to you has to do with how it is that you 
arrive at the $50 million figure. Why not $150 million? Why not 
some other figure? And if this program is funded at this $500 
million over a 10-year period, what do you expect to be the 
outcome, say, after the first 2 years? If we spend $100 million 
in the first 2 years, what do you expect to see? So how did you 
arrive at this number? And what do you expect to see 2 years 
out if we fund it at this level?
    Mr. Buchanan. Well, certainly the Department has a number 
of issues in the proposed farm bill that address this, 
certainly in forestry, also in rural development, and we have, 
I think, a balanced portfolio of requests. And this is a very 
bold request for our part, and I am delighted to support the 
$50 million. There certainly much, much more enhances the 
current funding we have in the area. So I am pleased that we 
have this in the budget proposal.
    Senator Salazar. Let me push you just a little bit more. In 
terms of the $50 million figure, I realize it is an 
enhancement, something that I very much support. But is this a 
figure pulled out of the air that says we need to have an 
enhancement in terms of research with respect to biofuels? Or 
is there some meat under the $50 million-a-year dedication to--
--
    Mr. Buchanan. One of the things that I have done when I was 
confirmed is that I hired a person to work with me in my 
mission area to really get a handle on what we are doing in the 
RE mission area in bioenergy. And that person is helping 
develop a plan as to what we would do, and I am pleased to say 
that we are developing that plan as to be a part of the total 
energy research effort within the Government. We will be 
cooperating, obviously, with DOE and other agencies.
    But I guess the thing I would go back to is that within the 
Department the $50 million a year or $500 million over 10 years 
is a very bold effort, and when you add that to the effort in 
rural development and they have a $500 million grant program, 
also a $2.1 billion plan for cellulosic ethanol, I think this 
is a very good approach and a very balanced approach to address 
what I think is a very important topic.
    Senator Salazar. Let me ask you the same question with 
respect to the specialty crops. You have $100 million in your 
proposal in the initiative on specialty crops. How did you 
arrive at that figure? And what is the meat under that figure 
that says this is what we are going to do with respect to 
specialty crops?
    Mr. Buchanan. Well, to start with, the specialty crops 
issue has emerged over the past few months, and certainly when 
the Secretary had the hearings all around the country, the 
specialty crop interests--and I think everybody is aware that 
there are about 60 percent of our farmers that do not 
participate in farm programs, and those are the specialty crop 
growers. And the common point that most of these folks made was 
that they wanted to be in the farm bill, but their interest was 
in three areas, primarily: first was research and education; 
the second was in phytosanitary issues; and markets and trade 
relations.
    So certainly the research and development area was one that 
I was concerned about. We also had a NAREEE board, our advisory 
board to the mission area, and they had a specialty crops 
symposium this past summer in Chicago, and clearly it was made 
abundantly clear that the specialty crops interest wanted to 
see enhancement of research and education. And so looking at 
the magnitude of this effort--and, of course, when you talk 
about specialty crops, you are talking about a major segment of 
U.S. agriculture. Almost half or a little over half of the 
value of U.S. agriculture is in specialty crops. So this was a 
very bold figure, and I am pleased that the administration saw 
fit to include this in the farm bill proposals.
    Senator Salazar. Thank you very much, Dr. Buchanan.
    Thank you, Mr. Chairman.
    Chairman Harkin. Thank you very much.
    Senator Casey?
    Senator Casey. Mr. Chairman, thank you again for your 
hearing today and getting us together on these important 
issues. And, Dr. Buchanan, thank you for your presence and your 
testimony and your public service.
    I am from Pennsylvania, and we have not only a great 
agricultural tradition but it is a significant part, as you 
know, of our economy. We are very proud of Penn State in 
particular when it comes to some of these issues, the 
Cooperative Extension Program that that institution has had for 
years. They have done research on ways to increase agriculture 
profitability, trouble-shooting production problems, water and 
soil management, nutrient management, animal diseases, go down 
the list. And you know that.
    But I wanted to ask you a question about your proposal 
today in terms of consolidation. What do you think is the basic 
difference between what you are proposing, to restructure 
research agencies, and what has been proposed by the acronym 
CREATE-21? Can you just give us an overview of the differences 
and whether or not--I guess the second part of the question is 
whether or not there is a way to combine the two proposals into 
one initiative.
    Mr. Buchanan. Well, certainly there are a lot of 
similarities. In fact, when we started the planning for my 
effort, I have been briefed by both Dr. Danforth on NIFA as 
well as by the CREATE-21 group, and we listened to both groups. 
In fact, we spent a good bit of time studying and listening to 
what other people were saying, and so we did not start in a 
vacuum. We started by listening.
    And I decided that we probably need to use some of the 
ideas that were brought forth, and I want to say for the record 
that by lifting up this idea, everybody should be commended for 
talking about the importance of these programs. So I want to 
compliment both of those groups.
    But also I want to say that when we started out, I started 
with a letter to all people in REE, everybody that is on board, 
and I had three goals if we did any restructuring. Those goals 
were:
    First, I wanted to improve the efficiency and effectiveness 
of our organization.
    Another one, which is very dear to me, is I want to see us 
strengthen the relationship between the Nation's land grant 
universities and other universities with agricultural programs 
in the Federal Government. I think this is one of the great 
strengths of American agriculture, and I just simply want to 
see this strengthened.
    And the third one was I wanted to enhance not only the 
quality but the recognition of the quality of science that is 
supported and conducted by the U.S. Department of Agriculture.
    So those are the three goals that I had in mind, and what 
then we started to do was putting together a plan that would 
enable us to do that. And basically there are a great deal of 
similarities. There are some differences, and I think you 
wanted me to respond to some of those.
    One is that we would--the plan that I proposed, the 
framework I would propose, maintains basically the structure 
within the Department. We would maintain the Under Secretary 
position. We would certainly have the--we would not have a 
separate entity. Of course, I think in some of the others it is 
a little bit different, but we would maintain the integrity of 
the organizational structure within USDA. I like to think that 
research and education is an integral part of the core mission 
of the U.S. Department of Agriculture, and I believe that with 
all my heart. So that is one of the things that I think is 
important.
    Another difference is the entities that would be 
incorporated into any restructuring, and we have all included 
two: the ARS and the CSREES. Those are the two primary 
agencies. We do not propose to include the Forest Service and, 
of course, there are some real reasons for that, because some 
of their oversights come from different committees, and that I 
think is important. But also we do not include ERS, and, of 
course, the Economic Research Service is another one of the 
agencies within the mission area I have responsibility for. 
And, of course, ERS does a lot of research, but they do a lot 
of other things as well. They are a national designated 
statistical agency and as such have responsibilities beyond 
research and education. So we chose not to include those two.
    Also, the leadership in our proposal would be a chief 
scientist/administrator of the REES agency, the new combined 
agency. We would maintain the Under Secretary, who would have 
oversight and overall responsibility, who would report to the 
Secretary.
    Another one is the Advisory Council. The proposal that we 
have, we would maintain the NAREEE Board, the National 
Agricultural Research, Education, and Extension Advisory Board, 
as is presently constituted, and, of course, there might be a 
different advisory group in the CREATE-21 proposal.
    Also, we proposed to maintain the authorities that I 
mentioned in my opening comments. We would maintain the 
authority for Hatch, McIntire-Stennis, Smith-Lever, 1890, 1994, 
and Hispanic Serving Institutions. We do not propose to change 
those authorities at all.
    So those are some of the highlights of the differences.
    Senator Casey. Thank you. I am in overtime.
    Chairman Harkin. Thank you very much.
    Dr. Buchanan, I want to just probe for a little bit on the 
biomass energy proposal that we have before us from the 
administration. You mentioned you wanted to make sure that ag 
was at the table. I would just perhaps modify that a little bit 
and say that ag should be at the head of the table. We are 
talking about bio-based products and bio-based fuels. That is 
agriculture.
    Now, DOE, fine, but, you know, the biggest portfolio, the 
biggest part of DOE's existence is managing our nuclear 
stockpile. That is their biggest deal. They manage our national 
labs. They do a fine job at that. And certainly they are 
involved in all kinds of energy, from coal to nuclear to 
gasification and a lot of other things. We are involved in bio-
based energy, and to some extent wind, because I always tell 
people if you are going to build wind energy, you are not going 
to build it in the cities, you are going to build it on the 
farms, in rural areas, which is under the jurisdiction of 
Agriculture.
    So when we talk about bio-based energy--and Senator 
Chambliss and I had a meeting with the President last week in 
the White House. What I got out of that meeting was very 
clearly that the President wants to move ahead on this. He is 
committed to it. He mentioned it in his State of the Union 
message, getting that 35 billion gallons, and I think he really 
wants to move ahead on this.
    And so, I want to make clear an observation: we are 
dividing this topic between DOE and Agriculture, and I do not 
think that is healthy. I just do not think it is. You may say 
we have good relationships and perhaps we do, but I am not 
certain that that is a healthy way to start on this.
    I would just point to the fact that in just trying to get 
out some of the DOE grants to some of our new biorefineries 
around the country, look how long that took. We know how to do 
it. Agriculture knows how to do that business. We have been in 
the loan portfolio business and grantmaking business for a long 
time. DOE has not. That is not their job. So I am hopeful that 
the administration and the Congress working together will start 
to focus on what we have to do in USDA on this.
    Similarly, I am wondering about the $50 million a year 
proposal you mentioned. Let me make sure I have got it here. 
Yes, dedicating $50 million annually for an Agricultural 
Bioenergy and Bio-based Products Research Initiative. Well, it 
seems to me that is less than what we are doing right now. That 
is less than what we are doing right now, if I am not mistaken. 
We had requested, $1.6 billion requested for the next 10 years, 
that is $160 million a year. So if you are only talking about 
$50 million, it seems to me this is a lot less than what has 
been proposed in the past. What am I missing here?
    Mr. Buchanan. In fact, I had my staff look it up. We had 
about $21 million in ARS and about $6 or $8 million in CSREES 
in biomass and bioenergy this past year.
    Chairman Harkin. Say that again? How much was that?
    Mr. Buchanan. I believe it was $21 million and $6 million 
in CSREES.
    Chairman Harkin. 21 plus 6, 27.
    Mr. Buchanan. That would be a total of 27. So this would be 
a major boost, and I go back and say that the administration, 
if you look at the total farm bill, has a number of other areas 
in which we have proposed funding, certainly in rural 
development as well as in forestry. But I want to go back and 
respond to what you said earlier, and that is that clearly the 
area of bioenergy and bio-based products is the future of 
agriculture. We simply have to do our part to address that. 
And, of course, the ultimate source of energy is the sun, and 
as I pointed out in my opening comments, agriculture is 
converting the sun's energy through photosynthesis into 
something we can use, and we can use food, feed, fiber, but we 
can also use fuel. So, Senator, I am committed.
    The other thing that I think is important is, while in your 
part of the world corn is clearly a high priority now and still 
and will be, we have got to look at other parts of the country. 
I do not think we are going to solve our energy issue simply by 
working in one part of the country with one or two commodities. 
We need to be looking at what we can produce on the High Plains 
of Texas----
    Chairman Harkin. That is right.
    Mr. Buchanan [continuing]. And Southeastern United States 
and the Northeast, all over this country, if we are going to do 
what the President wants us to do.
    Chairman Harkin. Well, I had kind of a private conversation 
with the President last week when we were down there about 
that, and he gets it. He gets this idea about switchgrass and 
where switchgrass can grow, and the fact that switchgrass has 
as much protein as an acre--actually, I think more protein than 
an acre of soybeans. An acre of switchgrass has more protein 
than an acre of soybeans and has more energy than an acre of 
corn. So we need the research on how we get the protein out and 
then utilize energy. It is a conserving crop. It can grow in 
the High Plains of Texas and everywhere else. Then we had your 
guy from Georgia Tech up a month ago or a few weeks ago 
testifying about the wood pulp that can be used in the southern 
part of the United States. It is there, just the existing wood 
pulp that was used for the paper industry that is no longer 
here, he estimated that that is about 4 billion gallons a year 
just from that of ethanol.
    So I agree with you, this is the future and where we have 
got to go. But I guess what I--and my time is running out for 
my second round, but what I am interested in is your research 
portfolio. How has it changed over the last 5 years? Is it 
changing to take into account the needed research that we need, 
both basic and applied, in this area of bio-based energy? Is it 
affirmatively moving in that direction?
    Mr. Buchanan. Yes, sir. There is no question about that. In 
fact, I want to give you a pre-publication copy of 
``Agricultural Research,'' and I will get copies for the whole 
Committee as soon as it is published. This is a pre-publication 
copy, but I want to make sure you get a copy of this. It lays 
out a number of things we are doing at ARS. We have comparable 
efforts in CSREES working with our universities, but there is 
no doubt in my mind, Senator, that we are moving in that 
direction. In fact, we have a number of--in fact, in fiscal 
year 2008, the budget has increases in biomass plus the $50 
million annually in the farm bill. So we are moving in that 
direction.
    In fact, you will notice in this book that a number of the 
different research projects and activities, for example, 
looking at cell wall--and, of course, you might wonder, well, 
what in the world has that got to do with bioenergy? But we 
have a major effort in looking at composition of cell wall 
because one of the--to get all that energy that you pointed out 
in switchgrass, you have got to convert not only cellulose and 
hemicellulose and those critters, but you have got to convert 
lignin.
    Now, when you really want to start converting lignin into 
energy and get the energy out of that, you have got a real 
challenge on your hands. So maybe we can breed plants that have 
more cellulose and less lignin. Of course, it would not stand 
up very well.
    [Laughter.]
    Mr. Buchanan. But there are all kinds of things that you 
need to be doing that is in basic science in order to get to 
the applied application of it. And we are doing that.
    In fact, I was out in Albany, California, back earlier in 
the summer and visiting with a cell wall group that is doing 
some of this basic type research.
    Chairman Harkin. So you are saying that right now, though, 
the total is $27 million.
    Mr. Buchanan. It is $27 million, yes, sir.
    Chairman Harkin. Well, quite frankly, between you and me, 
and me and the rest of the world, that is just not enough. It 
is just simply not enough.
    Mr. Buchanan. Well, we think that the $50 million 
additional, if that stays in the farm bill and becomes a 
reality, it will certainly be a step in the right direction.
    Chairman Harkin. Well, I appreciate that. It is a step in 
the right direction. But we have got to take bigger steps. That 
is just my own view, that we have got to take bigger steps than 
that in the farm bill. And I do not know how that is all going 
to work out.
    But I have used up a lot of my time, and I would yield to 
Senator Chambliss, if you have any further questions.
    Senator Chambliss. I do not think I have anything further.
    Chairman Harkin. Anybody else? Did you have any further 
questions?
    Senator Casey. No.
    Chairman Harkin. Oh, there is one last thing I just wanted 
to ask you. You mentioned organic research, the $10 million 
that you are putting into organic research. I posed the same 
question to Secretary Johanns. Why did USDA not want to 
increase funding to organic agriculture given the increased 
need for price, yield, and overall production and marketing 
information? The current farm bill provides $3 million a year 
in mandatory funds for organics. But USDA's proposal provides 
$2 million annually over 5 years. That is how we get to the $10 
million figure. So it is actually one-third less than what we 
already have in the present farm bill, and especially at a time 
when more and more consumers are demanding organics. I can go 
out to my local Safeway store where a year ago they had one 
little thing there for organic milk, and now it is one whole 
shelf. And people are paying for it. They are paying the extra 
money for the organics. Whole Foods told us that they cannot 
even get enough food to meet the demands. It is growing 20 
percent--it is the fastest growing part of our food sector 
right now, is organized, 20 percent per year. But then when you 
meet with organic farmers and others that are doing this, there 
are a lot of problems out there in terms of package processing, 
small farmers getting it to regional processors, getting it out 
to the consumers. And so I just do not know how you justify 
basically cutting it by a third.
    Mr. Buchanan. I think the answer to that, Senator, is we 
are not proposing to change the 202 program, but simply add to 
it an additional $10 million.
    I would also say that there is a lot of other research that 
is applicable to the organic growers that is done in basic 
fertility and things that does not involve chemical fertilizers 
that would also be helpful to the organic producers that is not 
necessarily directly in this proposal.
    Chairman Harkin. So you are saying the $10 million is in 
addition to what we are doing now?
    Mr. Buchanan. As I understand it, the $10 million is in 
addition to what is in the 202, as I understand it, Senator.
    Chairman Harkin. I did not understand that, and I 
appreciate that.
    Well, I have some other questions, but we have another 
panel we have got to get to. I hope I can submit some questions 
for the record, Dr. Buchanan.
    Mr. Buchanan. Yes, sir. I would be more than pleased to 
respond to any questions that you and other members of the 
Committee have.
    Chairman Harkin. And we thank you for your leadership.
    Mr. Buchanan. Well, thank you very much, sir.
    Chairman Harkin. Thanks.
    Now we will call our second panel up: Dr. Alan Leshner, 
Chief Executive Officer of the American Association for the 
Advancement of Science; Dr. Jeff Armstrong, Dean of the College 
of Agriculture and Natural Resources at Michigan State 
University; Dr. William Danforth, who has already been 
introduced by Senator Bond, Chancellor Emeritus, Vice Chairman 
of the Board of Trustees of Washington University in St. Louis; 
and Dr. Francis Thicke, an organic dairy farmer from the 
Radiance Dairy Farm in Fairfield, Iowa.
    Again, we will go in the order in which I mentioned your 
names. Again, all your statements will be made a part of the 
record in their entirety. If you could just sum it up in 5 
minutes, we would appreciate that so we could get to rounds of 
questioning.
    And so we will first turn to Dr. Alan Leshner, Chief 
Executive Officer of the American Association for the 
Advancement of Science, who is certainly not a stranger to me 
on my other Committee dealing with NIH over the years. Dr. 
Leshner and I have had many times when he has appeared before 
my other Committee over there in the past when he was at NIH. 
And so we welcome you to this Committee, Dr. Leshner. Again, if 
you could just sum it up in 5 minutes, I would appreciate that, 
and we will get to questions.

 STATEMENT OF ALAN LESHNER, CHIEF EXECUTIVE OFFICER, AMERICAN 
   ASSOCIATION FOR THE ADVANCEMENT OF SCIENCE, WASHINGTON, DC

    Mr. Leshner. Good. Thank you. It is very nice to see you 
again, and thank you all for allowing me to be a part of this 
distinguished panel.
    I would like to start us off with just a bit about the 
overall context and structure of the U.S. scientific enterprise 
of which agriculture is a critical part. I would argue American 
science is certainly among the best, if not the best in the 
world, and that its eminence derives both from the strong 
support science receives from many sectors of society and from 
the breadth of the U.S. research and development portfolio.
    America's scientific leadership also is a product of a 
multifaceted system for both supporting and conducting 
research. Research comes from a broad array of Government 
agencies, philanthropic foundations, and industry. Some 
research is conducted under grants or contracts at individual 
laboratories and universities, research institutes and 
industrial settings, what we call extramural research. And 
other research is conducted intramurally within Government 
agencies in their own dedicated laboratories and contracted.
    The success of American science has been a result of this 
kind of diversity in both the structure and the funding of our 
scientific system. With it all, the keystone of U.S. science 
across all fields has been the awarding of research support on 
the basis of what is known as peer or merit review. Awarding 
individual grants on the basis of peer review allows the 
Government and other funders to do the prioritizing of research 
areas in a general way, but also to have at the same time 
assurance that the highest quality science within those broad 
domains will be funded based on the judgments of top U.S. 
scientists. Peer review is especially important when funds are 
tight.
    Let me next make some comparisons about how the major 
Federal R&D agencies support science. The National Science 
Foundation, whose primary mission is to support basic and 
applied research, is unique among agencies in not having any 
labs of its own. It has no intramural research. On the other 
hand, the National Institutes of Health has a research 
portfolio that mixes both intramural and extramural research, 
as does the USDA. Of the $28.6 billion in R&D that NIH received 
in fiscal year 2007, some 15 to 20 percent went to support 
intramural research conducted at the NIH Institutes, and the 
remaining 80 percent goes to support extramural research.
    In contrast, the proportions at USDA are reversed. About 73 
percent of USDA's R&D budget goes for intramural research, and 
just about 27 percent goes to extramural, typically academic 
research.
    Concerning agricultural research, we consider it very 
unfortunate that, overall, USDA R&D has declined significantly 
in recent years. There was a big boost in funding in the early 
2000's, but that was not due to increases in the actual conduct 
of research, but to strengthening security requirements at USDA 
labs that conduct research on dangerous pathogens like anthrax. 
Moreover, under the proposed fiscal year 2008 budget, USDA's 
R&D budget would fall another 10.8 percent from its 2000 final 
appropriation to $2 billion, mostly from proposed cuts in 
intramural research. There is more detail on the USDA proposed 
budget in my written statement.
    But going back to the broader situation, the competition 
for Federal funding has become tremendously fierce regardless 
of the composition of any given agency's research portfolio, 
and that has become problematic. NSF, for example, funded less 
than 25 percent of the proposals that it received in fiscal 
year 2006, leaving almost $2 billion of highly fundable 
research unfunded. NIH, meanwhile, funds only about 20 percent 
of the extramural research proposals submitted, and the 
situation at USDA is even worse. The agency could fund only 16 
percent of the proposals it received.
    If one puts all this together, the aggregate of very high 
quality proposals that are declined every year represents a 
very rich portfolio of lost research and education 
opportunities, and it also sends a very discouraging message to 
those very bright young people considering science as a career.
    Let me conclude by saying that in an increasingly science 
and technology-based economy that relies on federally funded 
research as the foundation for innovation, the need for a 
clear, sustained Federal commitment to a diverse portfolio of 
agricultural research has never been more obvious. Robust 
research funding is necessary to understand and craft solutions 
to pressing issues ranging from how to react to a changing 
climate to the development of national security tools to 
protect against emerging biological and agriculture threats, to 
ensuring a sustainable agricultural economy for generations to 
come. We know that this Committee has been extremely supportive 
of these efforts, and we applaud your commitment to it.
    Thank you.
    [The prepared statement of Mr. Leshner can be found on page 
69 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Leshner, and for 
the next witness, I will call on Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman, for allowing me 
to introduce a very important person from Michigan. And I must 
apologize for coming in late, but I guess I made it just in 
time here for this panel.
    I want to make sure that Dr. Jeff Armstrong is 
appropriately welcomed. He is the Dean of the Michigan State 
University College of Agriculture, our oldest land grant, first 
land grant institution, Michigan State University, and not only 
growing up on a farm, but also having served in a number of 
different capacities. He came to Michigan State from Purdue 
University where he was the head of the Department of Animal 
Sciences, and he is serving nationally on the USDA board 
dealing with research and is co-Chair of the CREATE-21 
Coalition. And, Mr. Chairman, I am pleased to be working with 
the coalition to introduce their recommendations for 
consolidating and focusing on research, and I look forward to 
working with you on this.
    Thank you.
    Chairman Harkin. Thank you very much.
    Dr. Armstrong, please proceed.

 STATEMENT OF JEFF ARMSTRONG, DEAN, COLLEGE OF AGRICULTURE AND 
  NATURAL RESOURCES, MICHIGAN STATE UNIVERSITY, EAST LANSING, 
                            MICHIGAN

    Mr. Armstrong. Mr. Chairman, Ranking Member Chambliss, and 
Senator Stabenow, thank you for that introduction. Thank you 
for the opportunity to discuss CREATE-21, the land grant 
system's proposal to improve the integration and efficiency of 
research, teaching, and extension activities funded through and 
coordinated by USDA.
    Two years ago, a group within the land grant system asked 
the question: If we were going to build the agricultural system 
today, how would it look? We concluded that the current system 
is inefficient, with too many agencies. Also, we do not have 
the capacity or competitive funding to meet the new complex 
challenges we face today.
    Let me provide an example that really builds on Secretary 
Buchanan's eloquent statements. ARS and CSREES both have 
national program leaders in food safety, animal sciences, water 
quality, natural resources, and the list could go on. CREATE-21 
will consolidate ARS, CSREES, ERS, and Forest Service R&D into 
a new organization to be called the National Institutes for 
Food and Agriculture. It will more tightly integrate planning 
and implementation across all available in-house Federal and 
university capacity through a solution-based approach. It will 
double the authorization for food, agriculture, and natural 
resource research, teaching, and extension programs at USDA by 
greatly increasing the number of competitively awarded grants 
while also expanding our in-house ability and the land grant 
capacity with a special emphasis on the minority-serving and 
small land grant institutions.
    Let me make a few statements about what CREATE-21 will not 
do. CREATE-21 will not take away congressional prerogatives to 
provide special research and extension rants to address local 
needs. It will not prevent Congress from explicitly directing 
funds to local ARS facilities, and it will not cut ARS funding 
levels. In fact, just the opposite is true. We propose that ARS 
and other capacity programs would be guaranteed at the fiscal 
year 2007 base and we would see some increase.
    Mr. Chairman, as the leader of this effort, I have been 
asked many times: How can you propose consolidating these 
agencies into a single organization and have the audacity to 
ask for more money? I think your comments and many others have 
really answered that question. The challenges and opportunities 
are generational in scope.
    We have to put forward a plan that deals with our silos--we 
are in agriculture; we have silos--and also demonstrates the 
value of what we have to offer. If we cannot do that, then we 
get what we deserve.
    Perhaps the best way is to give an example that has been 
mentioned many times: the bioproducts, biomass area. You know 
there are many goals to increase this. It is going to require a 
prodigious amount of effort and a systems approach. Let me 
remind you, Senator Stabenow, that you and Senator Levin 
visited Bruce Dale's lab, an eminent scientist in this area. At 
the end of the tour, Senator Levin said to Bruce Dale, ``How 
can we move this cellulosic technology faster? How can we get 
it there quicker?'' Bruce Dale stopped for a moment, and he 
said, ``Two things. We need a billion dollars in fundamental 
research and we need a billion dollars that will allow us to do 
the systems approach, the extension work that is needed to 
connect everything.''
    Dr. Dale's assessment mirrors what our USDA Advisory Board 
recently said in a report to you, that we need the fundamental 
research but that we also need the extension and applied 
research. What we need is a single, well-funded organization.
    The leadership of the land grant system believes that 
USDA's science programs are at a critical juncture. The current 
system is inefficient. It has served us well, but it must 
change. I cannot speak for anyone else, but I do not want to be 
sitting here at the table at the next farm bill talking about 
lowering our dependence on foreign food.
    Mr. Chairman, in closing, let me say that the research and 
development system that has served food agriculture, forestry, 
and natural resources so well is no longer sustainable. Recent 
study results that are going to be released next week by the 
Farm Foundation document a substantial slowdown in farm 
productivity growth linked directly to reduced public sector 
funding. CREATE-21 would put USDA at the head of the table on 
topics like biomass and obesity. Our proposal encompasses the 
other two proposals.
    Clearly, if we do not solve the problems and seize the 
opportunities, our institutions will become more and more 
detached from the very people they were created to serve. They 
are in an environment, as you heard, competitive environment. 
They will move to other models. They will move from a dairy cow 
model, which is important in Michigan, to a rat or a mouse 
model because they are in an environment that thrives on 
competition. Let's not let that detachment occur. Let's enact 
CREATE-21.
    Thank you so much for placing this important topic on the 
table. I also want to thank Secretary Buchanan and Chancellor 
Danforth for their efforts in putting this important topic on 
the table. There is much that we agree upon.
    Thank you very much.
    [The prepared statement of Mr. Armstrong can be found on 
page 48 in the appendix.]
    Chairman Harkin. Thank you, Dr. Armstrong.
    And now we turn to Dr. William Danforth, Chancellor 
Emeritus and Vice Chairman of the Board of Trustees of 
Washington University, who was very eloquently introduced 
earlier by Senator Bond. Welcome, Dr. Danforth.

   STATEMENT OF WILLIAM DANFORTH, CHANCELLOR EMERITUS, VICE 
 CHAIRMAN OF THE BOARD OF TRUSTEES, WASHINGTON UNIVERSITY, ST. 
                        LOUIS, MISSOURI

    Mr. Danforth. Thank you, Chairman Harkin, Ranking Member 
Chambliss, and members. I appreciate this opportunity. I am 
William Danforth, and I have been introduced. I have been 
involved in biomedical research for 50 years and plant science 
for about a dozen; in other words, I have moved from trying to 
worry about saving lives retail to saving lives wholesale.
    Despite its enormous potential, agricultural research is, 
in my view, underappreciated, underfunded, and not managed to 
make best use of the Nation's scientific talent. Fortunately, 
we know how to fix this. For over 30 years, scientific panels 
have argued for more competitive, merit-based grants, but 
traditions have made change hard. Thanks to many, I chaired 
this task force that has been described. Our recommendations 
are embodied in a report here, which I would like to include in 
the record of today.
    Chairman Harkin. Without objection.
    Mr. Danforth. Our recommendations are embodied in the 
National Institute for Food and Agriculture Act, introduced 
last year by Chairman Harkin and Senators Bond, Lugar, Coleman, 
and others, and in the House by Chairman Peterson.
    Our conclusions were a few basic ones: Continued 
agricultural innovations are essential. Past innovations have 
been very successful, giving us food that is plentiful, cheap, 
and safe. Innovations must continue because of a number of 
challenges that have been mentioned several times today, and I 
will not repeat them, but they are very serious.
    Second, modern research into the fundamental nature of farm 
animals and plants is essential to meet these challenges. 
Fortunately, new understandings and technologies from cell 
biology, molecular biology, genetics and so on are as usefully 
applicable to plants and farm animals as they are to human 
medicine.
    Third, American knows how to manage and fund fundamental 
research. The National Institutes of Health and National 
Science Foundation have long done so with practical benefits. 
They just invite scientists to submit competitive proposals to 
meet national priorities. Grants are awarded to the best 
proposals as judged by a confluence of scientific merit and 
national need, and that is all there is to it. The system is in 
keeping with the American tradition of competitive free 
enterprise.
    Agricultural research has long been underfunded. The NIH 
spends almost $14 to $15 for research for every $1 spent by the 
USDA and about $150 in competitive peer-reviewed grants for 
every $1 so awarded by the USDA. Because NRI grants of USDA are 
smaller, of shorter duration, and carry lower overhead than do 
those at NIH and NSF, scientists with agricultural interests 
are tempted to opt for NIH or NSF programs rather than those 
essential to agriculture.
    Our proposals are narrowed and focused. They are designed 
to expand and enhance USDA's important fundamental research. 
They are designed to have more scientific input into 
decisionmaking at all levels, which is especially important in 
the fundamental research area where the science is not easily 
understood by even the most intelligent lay people.
    Our proposal does not touch existing research authorities, 
but separates the new area so that it might develop its own 
scientific culture. I would add that our charge did not include 
considering larger restructuring.
    Recognizing the chronic underfunding of competitive 
agricultural research, we recommend new money so as not compete 
with the ongoing programs which we respect. We recommended 
mandatory funding because we believe that a new way of doing 
things has had a hard time getting started, and started well, 
and needs protection for a number of years.
    If nothing is done, we worry that America will lose its 
competitive edge to cheaper land and low-cost labor, will not 
capitalize optimally on our opportunities for bioenergy or to 
protect our health and environment, cost of production will 
likely rise, and future farm program spending escalate.
    So, Mr. Chairman, we strongly recommend the adoption of the 
National Institute for Food and Agriculture in the research 
title. Last year, at least we had the support of a number of 
key groups when it was introduced, including the American 
Soybean Association, the National Pork Producers Council, the 
National Farmers Union, the National Corn Growers Association, 
and the National Chicken Council. This small investment will 
reap returns for farmers and ranchers and the Nation.
    Thank you.
    [The prepared statement of Mr. Danforth can be found on 
page 64 in the appendix.]
    Chairman Harkin. Dr. Danforth, thank you very much, and 
again let me thank you and, through you, the members of the 
board that was set up by the 2002 farm bill to conduct this 
review. I can assure you that your findings I believe are going 
to form the basis of how we move ahead on this. I thought you 
did diligent work, and I really appreciate it on behalf of all 
of us who were involved in putting that into the 2002 farm 
bill. So thank you very much for that.
    Mr. Danforth. Thank you, and thank you for putting it in.
    Chairman Harkin. Well, we will have questions later.
    [Laughter.]
    Chairman Harkin. Now I get to introduce an Iowan. Dr. 
Francis Thicke has the Radiance Dairy Farm down in Fairfield, 
Iowa. He grew up on a dairy farm in Minnesota, then decided to 
come to the southern climes in Iowa, get rid of those Minnesota 
winters up there. He has a B.A. in music and philosophy, but he 
returned to school to get his M.S. in soil science and a Ph.D. 
in agronomy from the University of Minnesota. He had a position 
with USDA with the Extension Service here in Washington, and he 
worked with sustainable agriculture programs as the national 
program leader for soil science.
    So, again, with that introduction, I just might also say 
that he was named a fellow of the Food and Society Policy 
Fellows Program from 2002 to 2004, and so we welcome a hands-on 
organic farmer to our panel today.
    Dr. Thicke?

 STATEMENT OF FRANCIS THICKE, RADIANCE DAIRY FARM, FAIRFIELD, 
                              IOWA

    Mr. Thicke. Thank you, Mr. Chairman and members of the 
Committee. I appreciate this opportunity.
    As you said, I have been a farmer and I have been a USDA 
bureaucrat and then back to farmer. I like to call myself a 
``born-again farmer.''
    [Laughter.]
    Mr. Thicke. Incidentally, when I left USDA, my colleagues 
were astounded that a USDA bureaucrat would actually think 
about going back to farming. But I say that facetiously because 
there are many dedicated people at USDA, and they are still my 
good friends.
    The previous speakers have made a good case for the need 
for more research funds for agriculture. As you said, Mr. 
Chairman, it has been flat for many years. I would like to 
focus a little more on applied research, integrated systems 
research. As a farmer and a former extension person, I want to 
focus on that. And probably a good example of that is the IFAFS 
program, the Initiative for Future Agriculture and Food 
Systems, which was funded by this Committee--or created by this 
Committee in 1998, at a mandatory $120 million per year. And in 
the 2002 farm bill, it was increased to $200 million.
    Well, this has been an ideal program. broadly supported. I 
say ``ideal'' in the sense that it is interdisciplinary; it 
involves producers on the ground; it solves problems on the 
ground. It is an outcome-based program. Unfortunately, over the 
years the funding has dwindled. Now it is at about $35 to $45 
million a year. That is an unfortunate situation, and I would 
like to see that reversed to bring it back up in the new farm 
bill to the $200 million mandatory funding level. And I do not 
see it as competition to the basic research we have talked 
about here. I think the two programs can be side-by-side, 
coordinated, parallel programs.
    Let's look at a couple of points from my written testimony. 
listed are some of the priorities from the previous IFAFS 
program and some new, additional priorities I would like to see 
added. I will mention two of them. One of them is related to 
sustainable energy production, biofuels. We have talked a lot 
about that, and I think we are at a tipping point here now. We 
are pushing--in the Midwest, for example, our farming systems 
we could tip to become less sustainable, and we could--if we go 
into cellulosic perennial crops, we could actually make it more 
sustainable and still produce fuel at a more efficient rate 
than with corn and soybeans. So I think we are at an exciting 
place. We could go the wrong way. We could just start to take 
all the corn stalks off the cornfields and end up with eroded 
soils, end up with more nitrate leaching, more hypoxia in the 
Gulf of Mexico. Or we could go the other way, grow more 
perennials, and we could actually reduce these environmental 
problems. I think that is an important thing we need to be 
concerned about.
    Another point in there is support for public plant and 
animal breeding. With all the emphasis on genomics and 
biotechnology, we have neglected classical plant and animal 
breeding. We have come to the point where we not only have few 
scientists in the universities that are doing this, but we are 
losing our diversity, our basic diversity of plant and animal 
genetics. We have to be very careful here. I think we need to 
put more emphasis on classical plant and animal breeding.
    Another point I want to talk about is organic research, 
education and extension. Actually, just last week I was in 
Washington to be on the review panel for the Integrated Organic 
Program grants program, and we reviewed about 60 research 
proposals. It was very exciting to see some of the research 
that is being done there, looking at farming systems as models 
of ecology, looking at how these ecological systems can 
regulate soil fertility, protect plants against insects and 
diseases, so actually circumvent the need for pesticides and 
synthetic fertilizers. This is really exciting research.
    Somebody mentioned earlier that conventional research 
actually can spill over to organic, but I think the spillover 
is even greater for--of organic research spilling over into 
conventional systems that can help to prevent environmental 
problems as we go down the road.
    Here I would speak on behalf of many organic organizations 
to say that we need to increase that. The organic food market 
is now about 3 percent of the food market. Organic research is 
about six-tenths of 1 percent of the research funding in USDA. 
If we were to do it on an equivalent, fair-share basis, we 
would be talking $120 million of organic research, though I am 
not bold enough to quite say that. But I think that $40 million 
per year between ARS and CSREES would be a good target for 
research--per year for research on organic farming.
    Two more things I would like to touch on quickly. One is 
the SARE Program, Sustainable Agriculture Research and 
Education Program, funded by the 1985 farm bill. It has been 
funded for 20 years. The farm bill said it should be funded up 
to $60 million. The highest it has got is $19 million, and it 
now has dwindled back. We are coming up on the 20th anniversary 
of this program. It is fitting that we should shoot for $20 
million funding for the fiscal year 2008 budget for SARE. That 
has also been an ideal program that has helped farmers be 
linked with researchers.
    Finally, I want to mention ATTRA, the National Sustainable 
Agriculture Information Service, which, as you know, has been 
zeroed out this last--in fiscal year 2007. This is a program 
that has been funded for 20 years. It has provided tremendous 
service to farmers, and suddenly it is being treated as an 
earmark. And we all know that is a mistake, and we need to 
reverse that mistake. ATTRA just last year, 2006, responded 
with mailings to 37,000 farmers across the country answering 
technical questions. It is a national program. Six hundred 
seventy-three thousand public documents were downloaded off the 
Internet from that program. If we lose that, we are losing an 
incredible resource for farmers across the country.
    I will end with that. Thank you.
    [The prepared statement of Mr. Thicke can be found on page 
80 in the appendix.]
    Chairman Harkin. Well, thank you very much, Dr. Thicke, and 
I thank the entire panel.
    First of all, Dr. Leshner, in your written testimony and in 
your verbal testimony, you compared research at NIH, NSF, and 
USDA. To me, the big piece missing from USDA's research 
portfolio--and you have probably gleaned that from what I said 
to Dr. Buchanan earlier--is the proportion of funds going to 
competitive grants. Agricultural research's base, the land 
grant institutions and extension, are funded by non-competitive 
grants, and there is a fear that if we put additional money 
into competitive grants, we will shift money out of extension 
and education.
    So, Dr. Leshner, you can provide an outside point of view 
on agricultural research since you have had extensive 
experience, as I mentioned earlier, at the National Institutes 
of Health and at the National Science Foundation, but not at 
USDA. How does AAAS view formula funds and competitive grants? 
Is there a value to funding research through both formula funds 
and competitive grants? And do you prefer one type of funding 
approach over the other?
    Mr. Leshner. Well, let me start by saying I think that the 
formula approach has been historically very productive in 
establishing infrastructure throughout the country for doing 
agricultural research and that it has provided a very important 
base of facilities and equipment and things like that.
    However, having said that, my view--and I believe the view 
of the vast majority of the scientific community--is that the 
core of scientific progress comes from competitive, peer-
reviewed grants. Scientists are notoriously argumentative and 
competitive, and, in fact, that competitiveness has, in fact, 
been one of the mainstays of the successes. So my experience 
has been that the core of research funding really should come 
from competitive, peer-reviewed grant support.
    Chairman Harkin. Well, now we go to Dr. Armstrong, one of 
our great land grant colleges. First of all, the land grant 
proposal to change agricultural research extension and 
education seems to prioritize formula funds and intramural ARS 
funds over competitive funds because it sets our current 
appropriations level as a base, with any money above that base 
going to competitively awarded grants.
    Do you believe that this order of priority is the correct 
one, that is, giving the highest priority to preserving formula 
and intramural funds?
    Mr. Armstrong. Well, thank you, Senator Harkin. I guess I 
would respectfully disagree with the characterization. I 
believe what we--I look at it, and I think back in my past 
growing up as a three-legged stool, sitting down to milk a cow. 
That represented in the panel the competitive funds, but there 
are two legs to that: the integrated systems approach that Dr. 
Thicke mentioned, as well as the fundamental approach that Dr. 
Danforth mentioned. The third leg being capacity.
    Now, someone in OMB asked me: Well, we understand the 
geographical differences, et cetera, but do you have to have 
everything everywhere? Well, with our system being better 
integrated with the proposal that is common to the Secretary of 
Ag and Secretary Buchanan and our proposal, we would be more 
efficient.
    So we are wanting to bolster the capacity, the intramural, 
and the formula funds--only slightly grow them, slightly above 
inflation. So I would view it as not prioritizing but 
bolstering something that has been going downward when you look 
at dollars based on an inflated basis. And so we are turning to 
much more competitive, but a key point of our proposal--I think 
Dr. Thicke hit it--is the integrated systems approach. We need 
this.
    A little prop. The latest issue of Time: ``Forget Organic, 
Eat Local.'' I am not trying to make a statement of what is 
right or wrong, but the systems approach that we need to look 
at the interface of wetlands, the environment, with the new 
bio=economy, that requires extension work, that requires 
applied research and fundamental research. So I view our 
proposal as being balanced in that regard.
    Chairman Harkin. If I might, Dr. Armstrong, what I hear 
from the countryside--and I did not see that picture on Time 
Magazine--is that the old systems of the non-competitive 
grants, the formula grants, the way the structure is set up 
just does not move rapidly enough to address the new dynamics 
that are out there, either in food or in energy; and that if 
you have competitively awarded the grants, then you have the 
sort of thing that Dr. Leshner is talking about, you have 
people out there vying for this and saying this is the new 
stuff and we want to compete for that.
    And so that is what I hear a lot of, and that is why I 
raise these questions, because what I am hearing is that the 
intramural system, the non-competitive grant system, may have 
served its purpose for a time in terms of capacity building. 
But if we are going to move aggressively ahead in both energy 
and the new types of foods that people want, we need to move 
more aggressively in competitive grants.
    Mr. Armstrong. Well, I am not disagreeing with you, and you 
fit well into our debate that the land grant system has had for 
the last 2 years. We have some individuals that wanted to make 
all new money competitive, and some wanted to bolster the 
formula and the ARS funds even more. But the key point is that 
we agree we need more competitive. What we are arguing, a 
difference--and ``argue'' not being a bad word--is the base of 
the capacity needed to sustain what we are doing. We need to 
have those plant pathologists. We need to have these other 
individuals working in those models.
    So I am agreeing with you. I think there is a degree. Our 
proposal would take the proportion that Dr. Leshner mentioned 
and move it to a 50-50, fully authorized and appropriated, 70 
cents out of every new dollar would go to competitive. And we 
put that on the table as certainly a debatable point.
    But I think as you indicated earlier in discussing biomass 
and bioenergy, the levels we are talking about are not enough, 
and we need more in competitive funding. I would agree with 
that. But we really will lose a lot of diversity in our system 
and our minority-serving institutions if we do not bolster the 
base, especially for these institutions.
    Chairman Harkin. Are you familiar with, have you looked 
over the proposals that came out of the Commission that Dr. 
Danforth headed? Have you looked over those proposals?
    Mr. Armstrong. Yes, sir, and, in fact, we greatly admire 
those proposals. One of my dear friends, Vic Lechtenberg, was 
one of the members; And, in fact, we called to CREATE-21 NIFA 
Plus early on because we viewed NIFA as being so fundamentally 
important and needed. But we believe we needed two other 
things: the capacity bolstering and the integrated IFAFS--Dr. 
Thicke could not have put it better--the IFAFS proposals. We 
need that as well, in addition to what Dr. Danforth is 
proposing.
    Chairman Harkin. I have more questions on this topic for 
myy next round, but I have gone over and I will recognize 
Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Dr. Leshner, you are familiar, I am sure, with the fact 
that in ag we are continually arguing over whether or not basic 
versus applied research is the better route to go. You have 
experience as an agency head, a scientist, a policy expert. 
Give us the benefit of your thought as to how we balance basic 
versus applied research, particularly in agriculture.
    Mr. Leshner. If I could say, if you could figure out the 
right formula, I could get you published in Science 
immediately.
    [Laughter.]
    Senator Chambliss. That is why we have got you here.
    Mr. Leshner. But I will say that in the rest of the 
scientific community we have been having exactly that same 
debate of what that balance ought to be.
    There actually are three pieces to it from my perspective. 
There is a fundamental research piece--and there is no future, 
there is no ultimate new technologies without a base of 
fundamental science. So there is a fundamental research piece. 
Then on the other end there is that applied research piece we 
all want. But there is one more piece that is extremely 
important, and that is in the middle. It is a process now being 
called ``translational research.'' But it is the process by 
which you take fundamental research findings and move them into 
applied research.
    Now, I apologize that I cannot give you an appropriate 
formula to it, but we need to be attending to all of those 
three simultaneously. And, again, from my perspective, peer 
review is the best way to help set the priorities within areas, 
but across areas I think the proportions shift over time. There 
is no magic number at any one time.
    The experience at NIH is a very interesting one. Frankly, 
up until the early 1990's, NIH actually was not doing quite 
enough basic research, increase of the basic research 
portfolio. But then around the turn of the century, there was a 
need to move more into translational and clinical research, and 
they have chosen to put more emphasis in that direction. So I 
think it requires a sort of integrated monitoring and, 
therefore, frankly, the idea of having a unit that can do that 
monitoring across all domains, and methods of supporting 
research sounds very attractive to me, although I do not know 
all the details so I cannot comment on those.
    Sorry for the long answer to a short question.
    Senator Chambliss. Dr. Thicke, you are a producer. These 
gentlemen are experts in policy. Dr. Buchanan is a policy 
expert. But at the end of the day, it is the guy that gets his 
fingernails dirty that has got to take all this research and 
all this theory and use it on his farm.
    You have been a bureaucrat. You are a producer. Tell us, if 
you will, if you could change any one thing we do in ag 
research or any one policy, as a producer, what would it be to 
help you more in your day-to-day activity on the farm.
    Mr. Thicke. I think that we need a lot more working 
directly with producers. Take the examples of organic farming 
or grazing. Grazing is an example where producers in the 
Midwest and throughout the country came up with this grazing 
system, very innovative, that is working very well, and then 
the researchers at the land grants started to look around and 
say, ``What are these guys doing? We do not know what they are 
doing.'' And those researchers who came out on the farm and 
actually worked with the farmers were very successful in 
helping the farmers to progress. Those researchers who stood 
back and said, ``I am going to research this little part here 
or this part here,'' they did not really contribute so much. So 
I think that we need to have more direct, on-the-ground work 
between farmers and researchers.
    For example, the words ``translational research,'' I 
question a little what that means. It sounds like top-down, 
that we are going to create the results in the lab and then we 
are going to bring it to the farmers. And I think it does not 
work that way. I think it is more of a top-down, bottom-up, 
integrated approach that we need to be looking at for 
agricultural research to help farmers.
    Chairman Harkin. That is a good thought.
    Dr. Danforth, your proposal would add a new program, 
presumably with its own staff, to the existing ag research 
structure. Do you think your proposal can succeed in the 
existing structure? Or would it do better in a consolidated and 
reorganized structure, as has been proposed by USDA and the 
land grant universities?
    Mr. Danforth. I do not think I am particularly competent to 
make that--to draw a conclusion. I would say this: that we were 
so worried about protecting competitive research because we 
felt that the USDA--if I could just make a little longer answer 
to that question.
    The National Science Foundation makes almost all of its 
grants competitive, and that is true because what they study is 
the same all over the world--chemistry, physics, and so on. The 
National Institutes of Health is about 85 percent competitive, 
so it has to--and medicine has some more local components to 
it.
    Agricultural has very strong local components to it, so you 
need both. And in our view, the local things have gotten really 
well funded compared with the fundamental research, and the 
fundamental research has changed a lot and needs a new 
approach.
    So we felt that, however it is structured, the fundamental 
research needs protection, and it needs to develop a new 
culture within the Department. And that is why we recommended 
having something that was separate. We felt if it were not 
separate that it might just sort of flow back into the general 
decisionmaking pool and get neglected.
    I appreciate the chance to try and explain that.
    Senator Chambliss. Just a comment about one aspect of your 
proposal. I notice you have got an advisory board of 25 
members, including farmers as well as researchers. And my best 
friends are farmers, and what I have always found is if you 
want 10 different opinions, ask 10 different farmers a 
question.
    [Laughter.]
    Senator Chambliss. I am wondering how in the world we are 
going to take 25 folks, most of whom are farmers, and have them 
advise anybody about a general--or reach a general conclusion. 
But it is an interesting proposal and great work you have done.
    Mr. Danforth. Can I add, I just--thank you. I would like to 
say the reason we did that--we did not say ``farmers.'' We said 
``stakeholders,'' which might include farmers and grocers and 
others. But the reason we did that--you asked the question 
about decisions between fundamental and basic research--or 
basic research and applied research and so on. We think that 
those decisions are best made face-to-face confrontation 
between scientists and those who need the research, the kind of 
thing where there is actual contact. That is pretty well done 
in some of the NIH panels. And if you had that, then you can 
argue things, like the scientists can say, ``We want to do 
this,'' and the people will say, ``We do not need all that. Why 
do you want to do that?'' The people who use the science can 
say, ``You have got to solve this problem.'' The scientists can 
say, ``We understand, and we would like to, but that is beyond 
today's science. That is going to have to wait until we do 
other things first.''
    So if you want to have the best policies, we felt that 
bringing these people together to argue them out would be a 
good thing to do.
    Senator Chambliss. Very much like what Dr. Thicke says, 
getting down to the local level.
    Mr. Danforth. Right.
    Senator Chambliss. Dr. Armstrong, relative to CREATE-21, 
obviously there is a lot of enthusiasm in some parts of the 
research community about CREATE-21. I would like for you just 
to take a minute to explain a little bit more about the process 
that the Land Grant Association went through to develop CREATE-
21, who was involved, who voted on this, who was entitled vote, 
and what does that vote tell us. We know the criticism of the 
program. You know the criticism. Tell us how you respond to the 
criticisms that are out there.
    Mr. Armstrong. A couple of years ago, we put together a 
small group to ask the question how would we do it again. Part 
of that was precipitated by the President's budget that would 
have taken Hatch dollars and moved it to competitive. And that 
would have been very devastating for the system because that 
capacity of that base, especially in the research area, has 
been explained, needing to have dairy work done in one State 
versus another. And we have discussed that.
    The group enlarged, and if you look at NASULGC, it 
represents 76 universities that are land grants that are in 
this particular group. NASULGC is actually representing over 
220 universities around the United States. That group includes 
veterinarians, individuals interested in human science, 
different boards. I will not bother you, you know, with the 
structure of NASULGC.
    Senator Chambliss. Sure.
    Mr. Armstrong. Last year, around August, we had a vote, so 
every land grant university--1994, 1890, historically black, 
the 1862--had five to six votes. So Scott Angle and those at 
University of Georgia had five votes. Roughly 400 ballots were 
cast. Two-thirds of the people responded, which is a high rate 
for our group. It is normally about like a Presidential 
election, 50 percent. And 86 percent responded in favor of the 
proposal. And we had a lot of discussion, multiple conference 
calls, some conference calls with over 100 people, about this 
very discussion that the Chairman and I were having earlier: 
What is the balance--or what we are all having: What is the 
balance of the formula and the competitive? We sided on 
majority competitive.
    One of the major criticisms I addressed in my testimony has 
to do with ARS. ARS is a wonderful organization. We are not 
proposing to take away that intramural arm. I have worked with 
ARS scientists. We have them at Michigan State. We want to see 
programming and planning at the national level better 
coordinated and move things together at that level. We would 
not take away any facilities. That intramural research is 
especially important for agriculture and natural resources. 
Being able to move, dealing with at avian influenza, issues 
related to our health, we need that. And we would not disparage 
that at all.
    Senator Chambliss. OK. Thank you very much.
    Thanks, The Chairman.
    Chairman Harkin. OK. Thank you, Senator Chambliss.
    Senator Stabenow?
    Senator Stabenow. Thank you, Mr. Chairman, and thank you 
for your leadership on this. This is so important--and Senator 
Chambliss as well.
    Just to follow up with Dr. Armstrong, you started to answer 
with Senator Chambliss what I was going to ask you in terms of 
the debate in terms of funding capacity versus the competitive 
funding. And it is my understanding that you are suggesting a 
base and then 70 percent--is that correct?--above that would be 
competitive grant funding. Could you speak just a little bit 
more about why you think that having that capacity funding 
should be protected as part of this while you are also 
recommending competitive funding on top of that. But could you 
just talk a little bit more about that?
    Mr. Armstrong. Well, certainly. First, Senator Stabenow, 
thank you for your leadership and support.
    One would be extension, that capacity. Extension is so 
important. It really translates--we are in the knowledge 
business, and extension takes the knowledge--whether it is 
generated on that campus or an ARS, it takes it out to the 
field. And it also reaches a broad range. It impacts Detroit in 
Michigan as well as it does Sanilac County. So it is very 
critically important.
    That capacity is needed--not to bolster that capacity to a 
tremendous amount, but let's stabilize it and let's get 
slightly above inflationary increases. So if you look at our 
proposal over the next 7 years, for Michigan State University 
or ARS, there would be a 29-percent increase in funding over 7 
years. That is above inflation, but that is well above the 3 to 
6 percent we have seen in the last 9 years, cumulative. So that 
base needs to be bolstered.
    Now, I said 29 percent and not 30 percent because we take 1 
percent and we put it toward the small 1862s--which we believe 
we need to have in the States. Agriculture is different, 
natural resource is different in every state--and our minority-
serving institutions. So that small percentage translates to 
about 150-percent increase to the 1994s and around a 75-percent 
increase for the 1890's.
    Our USDA Advisory Board reviewed the minority-serving 
institutions last year, and we heard from the 1994 and the 
1890, and believe me, the capacity really needs to be bolstered 
at those institutions to bring along the partnership.
    The other point is the integrated systems approach 
competitive funding is needed as well to round out the picture, 
the balance.
    Senator Stabenow. Thank you very much. I am going to have 
to leave. It does not reflect my interest level. But I 
appreciate all of you very much and your work.
    Senator Chambliss. [Presiding.] Senator Thune?
    Senator Thune. Thank you, Mr. Chairman, and I want to thank 
the people who are here today to testify for your input on 
this, and you have invested a lot of time and energy into 
coming up with strategies that make sense in terms of where we 
put research dollars. This is a farm bill that is going to be 
important to the agricultural community and all aspects of it, 
and there is a lot--I have talked with farmers and ranchers 
across my State for some time about it, and, of course, was a 
real interest in making sure that we have got a reliable safety 
net in place for our producers. And we talk about conservation 
and energy development and the commodity title probably the 
most, but research is a critically important part of this farm 
bill, and it is critically important to the future of 
agriculture and, frankly, bioenergy, which has become a big 
area of research and one that I think is going to yield some 
big dividends down the road.
    So thank you for the good work that you put into giving us 
some insights and ideas about how to proceed and what type of a 
model works the best.
    I have, in visiting with South Dakota State University, our 
land grant university in South Dakota, they support the CREATE-
21 approach, and I know that there are a couple of others that 
are on the table as well, including one that was put forward by 
the Department of Agriculture.
    But that being said, I think coming up with the right 
balance between how we deliver competitive grants, coupled with 
the proven success that we have had with formula funding, how 
much of the funding is available for direct program funding 
through perhaps block grants or that that would come through 
the annual appropriations process, those are all decisions that 
we are going to have to deal with here as we put this new farm 
bill together.
    So, anyway, I would like to just, if I might, focus a 
couple of questions with regard to some proposals that are out 
there.
    We have had a lot of, hundreds of millions of dollars now 
going into bioenergy research and development and certainly 
having billions more will be spent in the future. At least I 
hope that we are spending the amount of money we need to, to 
continue to develop what is an incredibly important success 
story in rural America and when it comes to our energy 
security.
    But the primary agencies that have been responsible for 
that have been USDA and the Department of Energy. How are these 
agencies working today in terms of coordinating that research? 
And how would creating a new Research, Education, and Extension 
Service help or hurt that coordination? And I guess I would 
pose that to any of our panelists.
    Mr. Armstrong. Thank you.
    Senator Thune. Dr. Armstrong?
    Mr. Armstrong. Yes, thank you, Senator Thune. I will take a 
shot at that, but that is certainly a question for Secretary 
Buchanan.
    I think it would enhance the ability because we would have 
more focus. We would have one program leader in that particular 
area, and it would allow us to move forward. I think DOE is 
certainly--I know several universities have been working on 
some center grants that really gets at the fundamental aspect 
of cell walls and cellulosic. That work will come along, and it 
needs to be coupled with extension and translational type of 
research to get that applied. So that is one example.
    I also think it is related to--you know, our chemical 
engineer, our specialist at Michigan State, I asked him, What 
if 20 or 25 years ago the Federal Government had invested 
competitive funds in a systems approach and in the fundamental 
approach to cellulosic 20 or 25 years ago? And he commented 
that he thought we would have less than $1-a-gallon fuel today, 
and profound impacts on rural South Dakota, rural Michigan, et 
cetera. So that is a very important aspect.
    So I would bring in the--I think it would enhance the 
collaboration. That collaboration is occurring, certainly--so I 
am not saying that that is broken--between DOE and USDA.
    Senator Thune. Does anybody else want to comment on that? 
Dr. Danforth?
    Mr. Danforth. I would just say that I think realistically 
this is a very long-term effort and is very, very difficult, 
and we just cannot overlook that, and it is going to take a lot 
of fundamental research, too, and the best scientific minds to 
try and solve some of these very difficult and challenging 
questions.
    Let me just say at the simplest level we cannot have 
biofuels without greatly increasing productivity per acre. You 
know, that sort of work needs to go on, and that definitely, it 
seems to me, is a USDA challenge, but it also involves a better 
understanding at the basic level of how plants grow, why they 
need more water or less water, and how one affects that and so 
on.
    One also wants to look at growing crops that are easier to 
convert to energy. You can imagine more energy, useful energy, 
in corn kernels and so on, or oils in soybeans. That is a big 
problem because at the moment NAFTA, at least is a net importer 
of vegetable oils. And then better attacks on how to convert 
cellulose to energy, not an easy problem, or lignocellulose to 
energy, an even harder problem. These are going to require lots 
of people working on them. They are in the kind of--I would put 
them as sort of solving certain kinds of cancer. You know, you 
just--we need to know a lot more before we are going to solve 
them efficiently to get low-cost fuels in sufficient quantities 
to ever get to $1 a gallon.
    Mr. Armstrong. Just to follow up, and this is related to 
industries important to your State, and Dr. Thicke mentioned 
it, the long-term genetic breeding work that we need. The wheat 
growers, I met with their board a week or so ago, Darren 
Coppock and others, and they had some questions about CREATE-
21; They were concerned what is going to happen with the 
capacity, the ability to do the long-term breeding research.
    I would contend that if we do not have a balanced portfolio 
and we have the minimal amount of funding that we have now, we 
force scientists into either/or. And they have to make a 
decision that is deeper than competing for the grant. They have 
to decide where they are going to compete. And so if the only 
funding is available in the biomass and in the other hot areas, 
they move to that direction, and they are not there to do the 
wheat breeding or the classical genetics work that is very 
expensive but very important to particular industries.
    So it is a balancing the portfolio perspective that is very 
critical.
    Mr. Thicke. Could I make a point on that?
    Senator Thune. Yes.
    Mr. Thicke. I do not have a dog in the fight, really, 
between formula funding versus competitive grants. But as a 
farmer and having worked on a national level in extension, I 
worry about what would happen if formula funds were gone 
completely, because some of the small States would not compete 
well. I know that from working in the competitive grant 
systems. What we would find is some huge universities would get 
huger, and the money would flow to few places, and it would get 
lost elsewhere. I know that would happen. It is just something 
to think about.
    And one little aside on the ethanol thing, I did a quick 
calculation. About 3 percent of our gasoline use comes from 
ethanol. Now, if we increased our miles per gallon by three-
quarters of a mile per gallon, we would save as much fuel as 
the ethanol we produced. And so you as Senators have to look at 
that. I would urge you to look at that. A couple miles per 
gallon, from 25 miles a gallon to 27 miles a gallon, we could 
eliminate much of this 35 billion gallons of ethanol that 
President Bush would like us to produce. I mean, that is a very 
important thing. It is like an elephant in the room we are 
ignoring.
    Senator Thune. I guess the other question I would have, and 
this has to do with the current research structure at USDA, one 
of the--at least what I hear stakeholders talk about is that it 
incorporates a lot of local input and access to research 
subjects and topics and the projects. How would CREATE-21 
maintain that local influence and ensure that stakeholders such 
as farmers and members of universities continue to have a voice 
in the direction of USDA research initiatives?
    Mr. Armstrong. I think it would do nothing but enhance 
that, Senator. I believe it would do that through an advisory 
board. There are some differences in what we propose as an 
advisory board versus the Department's. In fact, our advisory 
board is more in line with Dr. Danforth's proposal. But we 
would not alter the connections of the university or ARS at the 
ground level. What we are really talking about is how do we 
generate the ideas. Where is the planning?
    Take the honeybee example. If we have a problem you have to 
now go to multiple people and multiple agencies. There should 
be one place, and then take that and work through the 
intramural or the competitive to solve the problem.
    So it is really a subtle but a very profound change in 
having a single set of program leaders at the national level. I 
think that would enhance the ability of a producer to walk in 
and say here is a national program leader for soil science, and 
that is going to impact forestry, it is going to impact 
different areas. And then, of course, there are teams below 
that are more specific. Some may be more intramural from a 
delivery perspective. Some may be more competitive. And, of 
course, we want to grow the competitive, which all scientists 
can compete for these competitive programs, not just ARS or the 
land grant universities, but all scientists could compete for 
these competitive programs to get the very best scientists, the 
very best science.
    Senator Thune. Thank you. My time is well expired.
    Thank you, Mr. Chairman. Thank you all very much.
    Chairman Harkin. Good line of questioning, though.
    Dr. Thicke, I just was looking here, the response that you 
just said indicative concern about funding going to a few 
States, a few large States, if we did not have the formula 
funding. Dr. Leshner in his testimony pointed out that the top 
ten State recipients of USDA R&D funding receive 51 percent of 
the total share. But then he goes on to point out that the top 
10 for NIH get 72 percent, and for NSF it is 61 percent. So of 
those three, agriculture is the best in terms of being more 
widely disbursed in that regard. But, still, even with the 
system that we have had, the top 10 States get 51 percent of 
the share. So I am not certain that under the present system it 
is being disbursed evenly either.
    The other thing that Dr. Danforth pointed out that I think 
bears repeating is that NIH spends about $15 for research for 
every $1 spent by USDA. Fifteen times. The NIH awards about 
$150 in competitive, peer-reviewed grants for every $1 awarded 
by USDA. For the last 20 years, the growth in agricultural 
research has averaged around 1 percent compared with about 6 
percent for NIH over that 20-year period of time. So what that 
all adds up to, I think, is--what I have heard from all of 
you--that regardless of how we shape and fashion this, that 
because of the new challenges facing us, both in food and in 
energy, that we are really inadequate in the amount of money we 
are putting into ag research. I see heads nodding. Dr. Leshner?
    Mr. Leshner. Absolutely. That is absolutely the case.
    Chairman Harkin. From the AAAS standpoint?
    Mr. Leshner. Absolutely.
    Chairman Harkin. Dr. Armstrong?
    Mr. Armstrong. Absolutely, Senator.
    Chairman Harkin. Dr. Danforth?
    Mr. Danforth. Yes, sir.
    Chairman Harkin. And I assume Dr. Thicke. Well, that is 
interesting. You know, we look at the budgets and what we are 
doing here, and we are getting so much demand on agriculture. 
And I am just not certain that we are responding adequately 
enough with the amount of dollars that we have.
    The only last thing I had was for Dr. Thicke, just one 
thing for the record here. In response to the question by 
Senator Chambliss and what would help you as a hands-on farmer, 
you said more direct contact with the researchers and things 
like that. Let me just change that question a little bit. Since 
the organic industry is growing rapidly--at least the demands 
on it are growing rapidly, what specific information--
information, now--or research needs do you have that would help 
you or help other farmers transition?
    A friend of mine is an organic farmer in western Iowa. He 
took a whole section of land and turned it into organic 
farming, and he grows organic corn and beans and hogs and 
cattle. He has done some rye and a few other different things. 
It is all organic. And he is doing quite well at it now.
    The problem was the transition and to get to that point. 
And as he went looking around for research to help him, there 
just was not much. And here is a college graduate, his wife is 
a college graduate, two kids are college graduates, in the 
operation, but they just could not seem to find the kind of 
research needed, about what you do and how do you do it.
    So I am just wondering if that rings true with you. Again, 
I would just repeat: What kind of specific information or 
research would someone in your situation need? Not so much the 
direct contact, but what is the information you need?
    Mr. Thicke. Well, first of all, I think you are right about 
there is a lack of information for organic farmers, and for 
many years organic farmers were basically put off. They did not 
feel like extension had the information they needed. They did 
not know where to go. They basically got it from each other. 
And now extension is starting to respond, and particularly 
where you get people, individuals who are working in that area, 
it makes a big difference.
    But as far as specific information, in the transition and 
even in ongoing organic farming, some of the big issues are 
weed management and insect management, especially in vegetable 
crops; and in animal systems, animal health management without 
synthetic kinds of antibiotics and such.
    We tend to think, because we have a long history of many 
billions of dollars being put into research on antibiotics, 
that antibiotics are the final bottom line. But that is not the 
case. There are some innovative products out there by little 
shoestring companies that are helpful. I for example, will use 
for calf diarrhea these little herbal boluses that really, 
really work on something like that, but nobody has any idea----
    Chairman Harkin. I have no idea what you are talking about.
    Mr. Thicke. I am sorry. Calf sickness for baby calves, 
sicknesses in--a bolus is a big pill. Sorry. And this really 
helps a lot to knock the disease out of the calf. It is 
something that we think only antibiotics can do.
    But I am coming to the point that there is a lot of 
innovation done here and there, but it needs to be done more 
systematically. We need to have the scientific base to help us 
understand what is happening and to verify which products work 
and which do not work, and also what kind of a holistic systems 
help to prevent disease. So it is basically a holistic kind of 
approach.
    Did that make any sense? Did I lose you?
    Chairman Harkin. I may ask my staff to interpret all that.
    [Laughter.]
    Chairman Harkin. To help me a little bit on that one.
    Well, listen, those were just really the things I wanted to 
cover with you for the record. Again, I think we are going to 
struggle through this on this Committee, and I assume on the 
House Committee, too, both from the authorizing standpoint of 
authorizing the amounts, but then on Ag. Approps. to try to get 
the amounts of money in, either mandatory or discretionary, one 
of the two, and then to structure itself.
    As you can see, I personally have a lot of questions about 
the structure. I still do not understand how either your 
proposal or the proposal for CREATE-21 is different than what 
we tried in 1979 and that did not work out. Maybe it is 
different. I will just have to figure that out, and why this 
would work and the other one did not work.
    But as you can tell, both Senator Chambliss and I are very 
interested in agricultural research, and all aspects of it, and 
how to strengthen it and how to use this farm bill, to position 
us for the next 5, 10 years and put us in the direction we 
should go. And to that extent, I thank all of you for your 
input and welcome you to continue to give us input as we 
deliberate on this in the coming months.
    Senator Chambliss?
    Senator Chambliss. I would just comment, Mr. Chairman, to 
all four of you, as well as Dr. Buchanan, I cannot tell you how 
much we appreciate you, No. 1, doing the work that you are 
doing and thinking outside the box and trying to come up with 
new ways to make a good product better; and, second, for being 
here today to share these thoughts with us. I am a big fan, 
just like Senator Harkin, of research, period. Whether it is 
defense, medicine, or agriculture, I am firmly convinced that 
our children are going to live in a better world than we are, 
primarily because of the investment that we are making in your 
area today. And we just have got to continue to do that.
    So I thank you for the work that you are doing out there 
and trying to help us formulate some long-term policy, and 
thanks to all of you for being here today.
    Chairman Harkin. Thank you again, and the Committee will 
stand adjourned. Our next meeting will be the 21st, and the 
subject will be trade.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 7, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T5042.001

[GRAPHIC] [TIFF OMITTED] T5042.002

[GRAPHIC] [TIFF OMITTED] T5042.003

[GRAPHIC] [TIFF OMITTED] T5042.004

[GRAPHIC] [TIFF OMITTED] T5042.005

[GRAPHIC] [TIFF OMITTED] T5042.006

[GRAPHIC] [TIFF OMITTED] T5042.007

[GRAPHIC] [TIFF OMITTED] T5042.008

[GRAPHIC] [TIFF OMITTED] T5042.009

[GRAPHIC] [TIFF OMITTED] T5042.010

[GRAPHIC] [TIFF OMITTED] T5042.011

[GRAPHIC] [TIFF OMITTED] T5042.012

[GRAPHIC] [TIFF OMITTED] T5042.013

[GRAPHIC] [TIFF OMITTED] T5042.014

[GRAPHIC] [TIFF OMITTED] T5042.015

[GRAPHIC] [TIFF OMITTED] T5042.016

[GRAPHIC] [TIFF OMITTED] T5042.017

[GRAPHIC] [TIFF OMITTED] T5042.018

[GRAPHIC] [TIFF OMITTED] T5042.019

[GRAPHIC] [TIFF OMITTED] T5042.020

[GRAPHIC] [TIFF OMITTED] T5042.021

[GRAPHIC] [TIFF OMITTED] T5042.022

[GRAPHIC] [TIFF OMITTED] T5042.023

[GRAPHIC] [TIFF OMITTED] T5042.024

[GRAPHIC] [TIFF OMITTED] T5042.025

[GRAPHIC] [TIFF OMITTED] T5042.026

[GRAPHIC] [TIFF OMITTED] T5042.027

[GRAPHIC] [TIFF OMITTED] T5042.028

[GRAPHIC] [TIFF OMITTED] T5042.029

[GRAPHIC] [TIFF OMITTED] T5042.030

[GRAPHIC] [TIFF OMITTED] T5042.031

[GRAPHIC] [TIFF OMITTED] T5042.032

[GRAPHIC] [TIFF OMITTED] T5042.033

[GRAPHIC] [TIFF OMITTED] T5042.034

[GRAPHIC] [TIFF OMITTED] T5042.035

[GRAPHIC] [TIFF OMITTED] T5042.036

[GRAPHIC] [TIFF OMITTED] T5042.037

[GRAPHIC] [TIFF OMITTED] T5042.038

[GRAPHIC] [TIFF OMITTED] T5042.039

[GRAPHIC] [TIFF OMITTED] T5042.040

[GRAPHIC] [TIFF OMITTED] T5042.041

[GRAPHIC] [TIFF OMITTED] T5042.042

[GRAPHIC] [TIFF OMITTED] T5042.043

[GRAPHIC] [TIFF OMITTED] T5042.044

[GRAPHIC] [TIFF OMITTED] T5042.045

[GRAPHIC] [TIFF OMITTED] T5042.046

[GRAPHIC] [TIFF OMITTED] T5042.047

[GRAPHIC] [TIFF OMITTED] T5042.048

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 7, 2007



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T5042.049

[GRAPHIC] [TIFF OMITTED] T5042.050

[GRAPHIC] [TIFF OMITTED] T5042.051

[GRAPHIC] [TIFF OMITTED] T5042.052

[GRAPHIC] [TIFF OMITTED] T5042.053

[GRAPHIC] [TIFF OMITTED] T5042.054

[GRAPHIC] [TIFF OMITTED] T5042.055

[GRAPHIC] [TIFF OMITTED] T5042.056

[GRAPHIC] [TIFF OMITTED] T5042.057

[GRAPHIC] [TIFF OMITTED] T5042.058

[GRAPHIC] [TIFF OMITTED] T5042.059

[GRAPHIC] [TIFF OMITTED] T5042.060

[GRAPHIC] [TIFF OMITTED] T5042.061

[GRAPHIC] [TIFF OMITTED] T5042.062

[GRAPHIC] [TIFF OMITTED] T5042.063

[GRAPHIC] [TIFF OMITTED] T5042.064

[GRAPHIC] [TIFF OMITTED] T5042.065

[GRAPHIC] [TIFF OMITTED] T5042.066

[GRAPHIC] [TIFF OMITTED] T5042.067

[GRAPHIC] [TIFF OMITTED] T5042.068

[GRAPHIC] [TIFF OMITTED] T5042.069

[GRAPHIC] [TIFF OMITTED] T5042.070

[GRAPHIC] [TIFF OMITTED] T5042.071

[GRAPHIC] [TIFF OMITTED] T5042.072

[GRAPHIC] [TIFF OMITTED] T5042.073

[GRAPHIC] [TIFF OMITTED] T5042.074

[GRAPHIC] [TIFF OMITTED] T5042.075

[GRAPHIC] [TIFF OMITTED] T5042.076

[GRAPHIC] [TIFF OMITTED] T5042.077

[GRAPHIC] [TIFF OMITTED] T5042.078

[GRAPHIC] [TIFF OMITTED] T5042.079

[GRAPHIC] [TIFF OMITTED] T5042.080

[GRAPHIC] [TIFF OMITTED] T5042.081

[GRAPHIC] [TIFF OMITTED] T5042.082

[GRAPHIC] [TIFF OMITTED] T5042.083

[GRAPHIC] [TIFF OMITTED] T5042.084

[GRAPHIC] [TIFF OMITTED] T5042.085

[GRAPHIC] [TIFF OMITTED] T5042.086

[GRAPHIC] [TIFF OMITTED] T5042.087

[GRAPHIC] [TIFF OMITTED] T5042.088

[GRAPHIC] [TIFF OMITTED] T5042.089

[GRAPHIC] [TIFF OMITTED] T5042.090

[GRAPHIC] [TIFF OMITTED] T5042.091

[GRAPHIC] [TIFF OMITTED] T5042.092

[GRAPHIC] [TIFF OMITTED] T5042.093

[GRAPHIC] [TIFF OMITTED] T5042.094

[GRAPHIC] [TIFF OMITTED] T5042.095

[GRAPHIC] [TIFF OMITTED] T5042.096

[GRAPHIC] [TIFF OMITTED] T5042.097

[GRAPHIC] [TIFF OMITTED] T5042.098

[GRAPHIC] [TIFF OMITTED] T5042.099

[GRAPHIC] [TIFF OMITTED] T5042.100

[GRAPHIC] [TIFF OMITTED] T5042.101

[GRAPHIC] [TIFF OMITTED] T5042.102

[GRAPHIC] [TIFF OMITTED] T5042.103

[GRAPHIC] [TIFF OMITTED] T5042.104

[GRAPHIC] [TIFF OMITTED] T5042.105

[GRAPHIC] [TIFF OMITTED] T5042.106

[GRAPHIC] [TIFF OMITTED] T5042.107

[GRAPHIC] [TIFF OMITTED] T5042.108

[GRAPHIC] [TIFF OMITTED] T5042.109

[GRAPHIC] [TIFF OMITTED] T5042.110

[GRAPHIC] [TIFF OMITTED] T5042.111

[GRAPHIC] [TIFF OMITTED] T5042.112

[GRAPHIC] [TIFF OMITTED] T5042.113

[GRAPHIC] [TIFF OMITTED] T5042.114

[GRAPHIC] [TIFF OMITTED] T5042.115

[GRAPHIC] [TIFF OMITTED] T5042.116

[GRAPHIC] [TIFF OMITTED] T5042.117

[GRAPHIC] [TIFF OMITTED] T5042.118

[GRAPHIC] [TIFF OMITTED] T5042.119

[GRAPHIC] [TIFF OMITTED] T5042.120

[GRAPHIC] [TIFF OMITTED] T5042.121

[GRAPHIC] [TIFF OMITTED] T5042.122

[GRAPHIC] [TIFF OMITTED] T5042.123

[GRAPHIC] [TIFF OMITTED] T5042.124

[GRAPHIC] [TIFF OMITTED] T5042.125

[GRAPHIC] [TIFF OMITTED] T5042.126

[GRAPHIC] [TIFF OMITTED] T5042.127

[GRAPHIC] [TIFF OMITTED] T5042.128

[GRAPHIC] [TIFF OMITTED] T5042.129

[GRAPHIC] [TIFF OMITTED] T5042.130

[GRAPHIC] [TIFF OMITTED] T5042.131

[GRAPHIC] [TIFF OMITTED] T5042.132

[GRAPHIC] [TIFF OMITTED] T5042.133

[GRAPHIC] [TIFF OMITTED] T5042.134

[GRAPHIC] [TIFF OMITTED] T5042.135

[GRAPHIC] [TIFF OMITTED] T5042.136

[GRAPHIC] [TIFF OMITTED] T5042.137

[GRAPHIC] [TIFF OMITTED] T5042.138

[GRAPHIC] [TIFF OMITTED] T5042.139

[GRAPHIC] [TIFF OMITTED] T5042.140

[GRAPHIC] [TIFF OMITTED] T5042.141

[GRAPHIC] [TIFF OMITTED] T5042.142

[GRAPHIC] [TIFF OMITTED] T5042.143

[GRAPHIC] [TIFF OMITTED] T5042.144

[GRAPHIC] [TIFF OMITTED] T5042.145

[GRAPHIC] [TIFF OMITTED] T5042.146

[GRAPHIC] [TIFF OMITTED] T5042.147

[GRAPHIC] [TIFF OMITTED] T5042.148

[GRAPHIC] [TIFF OMITTED] T5042.149

[GRAPHIC] [TIFF OMITTED] T5042.150

                                 <all>

</pre></body></html>
